                                                    SENSITIVE BUT UNCLASSIFIED


         fU
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                         Compliance Follow-up Review of
                                          Embassy Kabul, Afghanistan

                                             Report Number ISP-C-11-53A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                              Table of Contents

Key Judgments                                                      1
Background                                                         3
Executive Direction                                                6
Evaluation of Compliance                                           9
Political, Refugee, Economic, and Political-Military Affairs      10
Coordinating Director for Development and Economic Affairs        11
  Office of Interagency Provincial Affairs                        13
  Border Coordinator                                              14
Rule of Law and Law Enforcement                                   15
Public Diplomacy                                                  16
Consular                                                          18
Resource Management                                               20
List of Formal Recommendations                                    24
List of Informal Recommendations                                  26
Principal Officials                                               28
Abbreviations                                                     29
APPENDIX I: Status of 2009 Inspection Formal Recommendations      30
APPENDIX II: Status of 2009 Inspection Informal Recommendations   53




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   Embassy Kabul complied with most of the formal and informal recommendations in both the
    main report and the security annex of the 2009 inspection.

•   Embassy Kabul is unique and as complex as the mission of the embassy itself. The
    Ambassador and his deputy are effectively directing embassy resources toward the transition
    to a post-combat Afghanistan that the President has mandated for the end of 2014. Balancing
    the urgency of transition with the needs of the ongoing counterinsurgency demands continual
    and close civilian-military coordination, a high priority for the Ambassador.

•   Three additional ambassadorial-level officers have well-defined span of control, with a clear
    delineation of chain of command for each agency and section under chief of mission
    authority. This high-level oversight aims at strengthening the whole-of-government approach
    that the Ambassador has adopted. All issues are managed along functional rather than
    agency-specific lines. Some interagency tensions persist, however, and need attention. The
    executive secretariat continues to improve.

•   The field structure, with senior civilian representatives coordinating the work of the U.S.
    Agency for International Development (USAID) and the U.S. Department of Agriculture at
    five regional commands and facilitating good civilian-military communications, was
    maturing at the time of this compliance review. With the opening this year of two consulates,
    the civilian presence outside Kabul is evolving in accord with the Ambassador’s vision of
    creating an additional two parallel offices in other Afghan cities.

•   Under the direction of the assistant chief of mission, the political, economic, and political-
    military sections are being well managed by experienced officers. Morale is high, despite the
    prodigious workload and exceptional conditions all face. Rule-of-law and anticorruption
    oversight has been completely restructured since the previous inspection. An ambassadorial-
    level coordinating director of rule of law and law enforcement position has been created with
    responsibilities that include anticorruption. The incumbent oversees a robust coordination
    and program staff, including a USAID senior anticorruption adviser and numerous U.S. law
    enforcement agencies, who work integrally with military colleagues.

•   The coordinating director for development and economic affairs (CDDEA) provides
    oversight and coordination of an enormous assistance program and a complex civilian-
    military planning process. Its mandate is very broad, and the front office greatly values its
    work. CDDEA’s oversight of USAID has exposed differences in bureaucratic culture that
    partly explain the stress in the relationship and highlight the importance of finding solutions.
    CDDEA also supervises the work of the Interagency Provincial Affairs (IPA) section and its
    civilian field personnel.

•   Analytical reporting faces three challenges—inexperienced personnel, an emphasis on other
    types of reporting, and inefficient processes—that combine to make it less efficient than it
    could be.
                                           1
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


•   The border coordinator is among the highest ranking officers in the embassy but has no staff
    and has not been given authority over the activities of other embassy sections and agencies to
    actually achieve the intent of establishing the position.

•   The public affairs section (PAS) has done a remarkable job of managing a budget that has
    increased 100-fold since the autumn 2009 inspection. An addition of 35 new positions has
    ensured the resources to launch many new initiatives, including a comprehensive civilian-
    military strategic communication plan. The section has also put in place procedures to handle
    its large contracts and grants. Public affairs staff recognizes that the current level of funding
    and staffing is unsustainable. The section is making preliminary plans to deal with the
    transition to a smaller and more typical PAS.

•   Normal immigrant visa processing is now authorized to begin in Kabul in May 2011. The
    section is prepared to handle this new workload. Details of special immigrant visa processing
    for Afghan applicants remain to be worked out with the Department of State (Department).
    Another consular investigator will be required for the program, but the embassy should be
    ready to begin this process in earnest this year.

•   The management office during the 2009 inspection was dealing with an atmosphere of
    massive personnel surges, constant reinvention, and multiple construction and infrastructure
    projects. One-year tours, massive summer turnovers, and a relatively new locally employed
    (LE) staff added to the management challenges during the civilian staffing surge. The current
    staff has been able to focus more on bringing policies and procedures in line with
    Department standards and consolidating the improvements they have made. Management
    controls have improved significantly, although some issues remain. With an eye to large
    savings, the embassy is fine-tuning the fare basis used for cost construct travel to overseas
    rest and relaxation (R&R) locations.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

Compliance follow-up reviews (CFR) by OIG provide senior managers of the Department with
progress reports on the status of recommendations that result from inspections and provide OIG
with a quality assurance assessment of its work.

This CFR took place in Washington, DC, between March 21 and April 1, 2011, and in Kabul,
Afghanistan, between April 4 and 12, 2011. (b) (6)




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Background
        Embassy Kabul in 2011 is a mission in transition. There has been a steep increase in
civilian staffing in Afghanistan since the 2009 inspection; a spike in funding for U.S.
Government programs that is likely to drop off sharply in coming years; and massive
construction projects that will disrupt normal life on the compound in Kabul for the next 2 to 3
years. The numbers are daunting. When the inspection took place in autumn 2009, the mission
had a staff of 538 U.S. direct-hire employees and a total staff of 1,245. In FY 2009, the actual
appropriation for Department operations (Diplomatic and Consular Programs funds) was $654
million. At the time of this compliance follow-up review, the mission had grown to a staff of just
over 1,000 U.S. direct-hire employees and a total staff of 1,942. FY 2010 appropriated funding
for State Operations was $935 million. Final FY 2011 budget figures were not available at the
time of the CFR; however, the FY 2011 expected Diplomatic and Consular Programs funds total
is $897 million. This is the infrastructure that supports the largest development and assistance
budget in the world, with $14.5 billion in Economic Support Fund and International Narcotics
Control and Law Enforcement funds appropriated between FYs 2006 and 2011.

       The rapid turnover of American staff has continued, given that 1-year tours of duty
remain the norm. Despite the upsurge in the numbers of individuals serving in Afghanistan,
continuity across the “generations” of these individuals is a commodity in short supply. Lessons
learned in one generation do not easily or automatically pass into the work plans of those who
come after.

        This context adds importance to OIG’s CFR of the comprehensive 2009 inspection of
Embassy Kabul. A pilot scheme to introduce longer tours of duty for some positions in
Afghanistan is in the design phase. This initiative, if enacted, would add some depth to the work
force assigned to Afghanistan, but the numbers would be small in the immediate future, and the
rapid turnover of staff would likely continue until major changes are implemented.

        Ten years after the U.S.-led invasion that ousted the Taliban from power, the U.S.
diplomatic presence in Afghanistan is at a critical juncture. Planning for transition has begun as
the embassy responds to presidential initiatives that seek a political solution and reduction of our
military presence. At the same time, the core objective of the U.S. effort in Afghanistan remains
to prevent that country from again serving as a haven for militant extremists and a launching pad
for terror attacks. These dual objectives will require both an Afghan Government able to assume
responsibility for its own security and direction and an important civilian presence in
Afghanistan after the military combat effort ends.

        The keystone of this transition process is civilian-military coordination. Much of the
embassy’s approach is designed to enhance this civilian-military process and find ways to align
the strategies and resources of both parties.

        The joint counterinsurgency strategy developed with U.S. military counterparts aims to
deliver U.S. nonmilitary assistance to support licit economic development, rule of law, security,
good governance, and effective law enforcement. This endeavor is a whole-of-government

                                           3
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

undertaking that calls for strong coordination among numerous mission components. The
coordinating structure in place, designed by the embassy in coordination with the Special
Representative for Afghanistan and Pakistan (S/SRAP) and others in the Department, aims at
ensuring nonmilitary assistance programs are developed and managed along functional rather
than agency-specific lines. The Ambassador proposed the assignment of senior civilian
representatives (SCR) in five regional commands throughout Afghanistan to oversee and
coordinate the work of the regional platforms and provincial reconstruction teams (PRT) and to
direct the interagency development effort that is demanded. They report to the embassy in Kabul
via the IPA section.

         This structure continues to evolve, and will change further as transition planning matures.
In the short term, the number of individuals assigned to field locations outside Kabul to work
with military and local government officials will grow as the surge in overall numbers that has
characterized the last 18 months plateaus. In the longer term, leading up to the end of 2014,
embassy leadership envisions both a smaller civilian presence in the field and one that is
concentrated in regional centers. Two of the SCRs now wear two hats as consulates are being
established in Herat and Mazar-e-Sharif. Additional consulates may open in two other Afghan
cities (evolving from the current Regional Command South and East platforms), but in the post-
combat period, the number of platforms from which civilians will carry out their functions will
be far fewer than now. Life support and security for these locations will present special
challenges. In fact, it is in these regional centers that the identification and ordering of priorities
between pursuing counterinsurgency efforts and implementing transition to post-combat
conditions will be most apparent.

        As the last 10 years have demonstrated, nurturing an effective Afghan Government that is
responsive to its people is enormously difficult. For generations, authority has resided not with a
central government but with local power brokers and tribal militias who see little benefit in
surrendering power to the center. To date, the election experience has been mixed, with manifold
allegations of fraud. The Afghan Government has yet to build an administration that can begin to
address expectations for services, jobs, and security. Corruption remains a major problem.
Afghans’ patience with their government and with the international community is waning after
years during which many have seen little or no improvement in their lives. Support in the United
States and other countries for assisting Afghanistan is also fraying.

        Defining success in Afghanistan will demand strengthening the bonds between Afghans
and their government. Supporting this goal, however, is a costly endeavor. Its continuation
comes at a time when budgets are tightening in Washington. However large the U.S.
Government’s outlay in Afghanistan has been in recent years, it is not immune to substantial cuts
in the present climate. These budgetary truths will be critical to both the counterinsurgency effort
and the transition to normal operations. Given current economic conditions, the Afghan
Government lacks the ability to make up shortfalls in funding. Jump-starting the economy to
meet the challenges of a post-war slump in funding is an essential part of transition planning.

      To achieve its goals, Embassy Kabul has put in place a vast bureaucratic structure. The
management of this behemoth and the security of its personnel and facilities in the face of
ongoing challenges are daunting. Teams of individuals who, like most of their embassy
                                            4
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

colleagues, rarely stay in country long enough to become experts in their functions in
Afghanistan are charged with institutionalizing both effective management controls and
comprehensive security procedures. The challenges for both are stiff and will require continuous
external oversight throughout the transition.




                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
The structure of executive direction at Embassy Kabul is unique and as complex as the mission
of the embassy itself. The Ambassador heads up a large organization that includes four
additional senior officers with ambassadorial experience and rank. The first of these, the deputy
chief of mission, supervises the work of the other three: the assistant chief of mission, the
coordinating director for rule of law and law enforcement, and the CDDEA. The ambassadorial
title facilitates the civilian-military exchange, where people of like rank interact easily with one
another. An executive secretariat answers to the assistant chief of mission.

        The Ambassador and his deputy have led the embassy constructively to focus on the
transition to post-combat conditions in Afghanistan that the President has mandated for the end
of 2014. While the counterinsurgency effort continues, the Ambassador has clearly transmitted
the urgent U.S. Government priority of transition to all embassy personnel both in Kabul and in
field locations across Afghanistan. His emphatic message on transition frames directly the
civilian-military campaign planning that is ongoing at the embassy. It also challenges the many
civilian U.S Government agencies in Afghanistan to align their work with presidential priorities.

        Each of the latter three ambassadorial-level officials has a well-defined span of control,
ensuring clear responsibility for each agency and section under the authority of the Chief of
Mission. The assistant chief of mission has direct oversight over most of the Department’s
traditional sections: political, political-military, refugees, management, consular, regional
security, and the community liaison office. The coordinating director for rule of law and law
enforcement exercises oversight over the legal attaché, the Department of Justice, the Drug
Enforcement Administration, the Bureau of International Narcotics and Law Enforcement
Affairs, the Department of Homeland Security, the Federal Bureau of Investigation, and the U.S.
Marshals Service. The CCDEA has responsibility for USAID, U.S. Department of Agriculture,
the Treasury Department, the economic section, IPA, the Federal Aviation Administration, and
the border coordinator. In a few areas such as rule of law and border security, responsibilities can
overlap.

        This high-level oversight is aimed at strengthening the whole-of-government approach
that embassy leadership has mandated by insisting that all issues are managed along functional
rather than agency-specific lines. Diplomacy and development are seen as twin pillars of civilian
power in Afghanistan. The scope of this endeavor is vast. In the face of these enormous
challenges, the oversight model in place at Embassy Kabul has worked reasonably well. One
example of the determination to coordinate across agency lines is IPA, where the work of
civilians from multiple agencies at regional platforms and PRTs comes together under the
supervision of a Department SCR.

        This whole-of-government approach is commendable and broadly recognized as such
throughout the embassy. It places Embassy Kabul squarely in line with those who have
embraced the need to maximize collaboration among agencies, build on existing partnerships,
tackle common problems, and align U.S. Government programs. At the same time, however,
interagency tensions persist.

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The USAID-CDDEA relationship is a case in point. Given the very large sums of money
involved and the unique structure established in Afghanistan for the coordination of foreign
assistance, some of these tensions are inevitable. Overall, CDDEA’s oversight role has been an
admirable success story. For example, the creation of a unit within CDDEA to monitor program
development and tighten financial controls was a sound initiative. However, the disagreements
that have emerged between CDDEA and USAID need urgent attention. These disagreements are
discussed in more detail elsewhere in this report.

         The 2009 inspection highlighted the shortcomings of the executive secretariat in
facilitating the clearance process and speeding up paper flow to the executive office. Since 2009,
the embassy has increased the number of professional staff in the secretariat, cross-trained them,
and put into place a series of standing operating procedures. Protocol assistants and interpreters
now jointly fall under the supervision of the executive secretariat, in response to an informal OIG
recommendation that is now closed. Despite these improvements, the clearance process
continues to cause problems that are manifested in missed deadlines, delays in transmission of
cables, and frustrations for people drafting memos or cables. All four staff assistants are on duty
simultaneously, and for long hours. A rotating schedule for these staff assistants will help to
avoid burn out.

       CFR Informal Recommendation 1: Embassy Kabul should organize a roster of staff
       assistants in the executive secretariat so that no more than two individuals will be on duty
       at the same time.

        Similarly, having staff assistants travel with the Ambassador detracts from their staff
function and often leads to over-long days as they continue working in the office after traveling
all day. Having officers from the relevant sections throughout the embassy join the Ambassador
or other senior staff on in-country travel would both contribute substantive knowledge and note-
taking skills while giving them valuable experience and context outside Kabul.

       CFR Informal Recommendation 2: Embassy Kabul should use section officers rather
       than staff assistants to accompany the Ambassador on his in-country travel.

        The executive secretariat is located at the farthest point from the front office on the same
floor. This is a major obstacle to good communication and both monitoring and responding to the
needs of the Ambassador, his deputy, and the assistant chief of mission.

       CFR Informal Recommendation 3: Embassy Kabul should relocate the executive
       secretary to the space in the front office freed up by reducing staff assistant presence
       from four to two. The deputy executive secretary could remain in the current office of the
       executive secretariat, which will provide needed file, work, and swing space.

       The inspection team was repeatedly told that embassy personnel were recalled from their
residences to transmit cables that had been approved by the front office. The Department’s
message handling software permits any authorized user to edit and release a cable.


                                           7
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       CFR Informal Recommendation 4: Embassy Kabul should empower staff assistants to
       make final edits and release cables and memoranda approved by the Ambassador, the
       deputy chief of mission, and the assistant chief of mission.

        The OIG team also learned during this compliance review that the executive secretariat
only processes paper and clearances for the Ambassador, the deputy chief of mission, and the
assistant chief of mission. Neither of the two coordinating directors has comparable executive
secretariat structures in place. This lack of staff dedicated to the clearance process contributes to
inefficiencies in moving that paper forward.

        The Department has established consulates in Herat in the west and Mazar-e-Sharif in the
north. In each case, the current SCR is also the consul. Officers from the regional platform have
yet to occupy the buildings that are being readied for them but hope to do so soon. The year-long
delay in doing so is affecting morale and productivity, as the expanded staffing foreseen for the
new buildings are shoe-horned into existing office and residential facilities. The emergence of
consulates in these two provincial cities is a concrete manifestation of the Ambassador’s focus
on transition toward a more normal civilian presence in Afghanistan after combat ends. The
Ambassador’s vision for the future is to create similar or parallel offices, depending on start-up
costs, in two other Afghan cities. This decision accords with the Presidential directive for a
future U.S. civilian role in Afghanistan.




                                            8
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Evaluation of Compliance
        The CFR team found that Embassy Kabul had complied with the majority of the formal
and informal recommendations from the 2009 inspection. A CFR automatically closes all formal
and informal recommendations from the inspection, but these may be reopened, revised, and/or
reissued by the CFR, as appropriate. A complete list of the compliance status of all formal
recommendations from the 2009 inspection is in Appendix I of this report. A complete list of the
status of all informal recommendations from that inspection is in Appendix II of this report.

        Of the 89 formal recommendations in the 2009 inspection, 53 were closed before the
CFR, 31 were resolved/open, and 5 were unresolved. As a result of the CFR, 30 of the 31
resolved/open recommendations were closed. All five of the unresolved recommendations were
closed. Three of the closed recommendations were reissued.

        Recommendation 38, which deals with who provides audio-visual assistance, was closed
prior to the CFR; it has been reissued. Recommendation 70, concerning a comprehensive
training plan for the local staff, was closed prior to the CFR; it has been reissued.
Recommendation 74, concerning standard operating procedures for computer-related
procurement and installation, was open prior to the CFR. It has been reissued. Recommendation
79 regarding a contact management database was open prior to the CFR. It has been reissued.

        Of the 46 informal recommendations, 43 were closed by the CFR. Informal
Recommendation 34 regarding a time line for eligible family member hiring was reissued as a
formal recommendation by the CFR team. Informal Recommendation 42 regarding medical kits
in official vehicles was also reissued as a formal recommendation under the CFR.




                                          9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Political, Refugee, Economic, and Political-Military Affairs
        The political, economic, and political-military sections are well managed by experienced
officers. Morale appears high, despite the prodigious workload and extraordinary conditions all
face, although a common theme in interviews was the tax on productivity that preparation for,
and attendance at, meetings and briefings represented.

        The embassy’s internal process for clearing and approving cables is inconsistent and
frustrating. The team found that while some section heads were empowered to release cables,
others were not. No explanation could be provided for the discrepancy. During the OIG team’s
visit, written guidance to clarify the authority of section heads to release cables was approved by
the Ambassador and circulated by the executive secretary.

        The inspection report’s recommendation regarding women’s grants clearly intended that
the political section not administer such a program. The Embassy nevertheless implemented a
program of small grants monitored by the political section and totaling $4.5 million in FY 2009
to FY 2011. The political section now includes a newly trained and warranted grants officer who
spends between 50 and 75 percent of her time on the program, and a local employee who serves
as grants officer representative; they rely informally upon field personnel to monitor grants
outside Kabul. It is not readily apparent that devoting this amount of staff time to this small
program, when experienced grants officers are readily available in other embassy sections, is an
effective use of resources. The OIG team did not have time to review grants documentation,
including evaluations of their effectiveness.




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Coordinating Director for Development and Economic
Affairs
         The Ambassador has a firm vision of a whole-of-government approach to the civilian
effort in Afghanistan, predicated upon broad chief of mission authority as envisioned in the
recent Quadrennial Diplomacy and Development Review (QDDR). CDDEA was thus created to
assist in his oversight of and direction to all U.S. Government civilian assistance to Afghanistan.
The front office relies upon, values, and supports CDDEA’s financial management and
coordination efforts, both within the mission and with military, third country, and
nongovernmental actors in Afghanistan.

        CDDEA provides extensive oversight and coordination of an enormous assistance
program—arguably the United States’ largest in the world—and a complex civilian-military
planning process. It is a unique structure with a broad mandate and with significant differences in
staffing, size, and scope even from similar functions in Baghdad and Islamabad. Creation of a
unit within CDDEA to monitor program development and tighten financial controls has
deepened discipline in the assistance program. It has had considerable impact in both cataloging
the assistance programs of the many U.S. Government agencies operating in Afghanistan and
identifying weaknesses and overlaps.

        CDDEA’s oversight of USAID in Kabul has highlighted differences in bureaucratic
culture that exist between the Department and USAID at missions throughout the world.
Although the QDDR envisions chiefs of mission as the “chief executive officer” of a multi-
agency organization, this remains a work in progress and unresolved questions remain about
their roles, authorities, and oversight responsibilities for assistance programs largely
implemented by other agencies. These bureaucratic differences exacerbate feelings of
professional misunderstanding—some perceived, some real—that in Kabul extend beyond the
immediate CDDEA/USAID relationship to the embassy’s relationship with USAID as a whole.
Taken together, these problems should be addressed at the mission with the goal of having an
improved working relationship in place when a new generation of personnel arrives this summer.
Getting this relationship right could provide important validation of the QDDR’s vision, but
these problems primarily require resolution at the Washington level.

CFR Recommendation 1: The Office of the Special Representative for Afghanistan and
Pakistan, in coordination with the Office of the Deputy Secretary for Management and
Resources, Embassy Kabul, and the Office of the Director of U.S. Foreign Assistance, should
clarify with the U.S. Agency for International Development the oversight and managerial roles
of the various offices and agencies within Embassy Kabul dealing with foreign assistance.
(Action: S/SRAP, in coordination with D(N), Embassy Kabul, and F)

       On the one hand, USAID widely perceives CDDEA as having few program-level staff
with substantive experience or training in development assistance or field project management.
USAID also perceives CDDEA’s approach to financial management as aggressive. Concerns
were also raised about the appropriate level of financial management by CDDEA of USAID
programs. USAID staff were concerned that this added layer was causing staff to spend undue
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

amounts of time on increasingly detailed internal embassy briefings and meetings with growing
CDDEA staff. The demands for increasingly detailed briefings and decision documents by the
embassy’s multiple ambassadorial-level senior officers are sometimes perceived as a diversion
from doing “real” development work. Broader perceptions of second-class status for USAID
staff in housing and office space contributed to friction between staff. Despite a good
relationship between senior leaders, the two institutions often talk past each other.

        At the same time, many in embassy upper management, including the front office, view
the commitment of some in USAID to the Ambassador’s whole-of-government approach as
grudging at best. The mission provided the CFR team with several examples of what they felt
were failures by USAID to inform, much less seek approval from, the Ambassador on major
programmatic decisions. In other cases, weak USAID project oversight was felt to have
contributed to failures with significant political fallout, which fed the demand for more and more
detailed documentation.

        Perceptions matter, and arguments over right and wrong do nothing to resolve them. To a
certain extent, interagency tensions are routine, but attaining U.S. goals in Afghanistan requires a
local relationship that is on better footing than it is now. Resolving organizational differences
needs leadership from Washington as well.

        Bringing USAID expertise into CDDEA’s policy structure would be a prudent move. The
embassy and USAID recognized the potential benefits of this when a senior USAID officer was
recruited to succeed the current CDDEA coordinator, although that assignment did not work out.
No one from USAID is now assigned to CDDEA and all 2011–2012 position openings have
been filled with Department officers, but it should not be difficult to carve out a meaningful role
for a USAID detailee were one made available. The CFR team believes that there will be clear
value added in bringing USAID experience into CDDEA’s policy apparatus.

CFR Recommendation 2: Embassy Kabul, in coordination with the Office of the Special
Representative for Afghanistan and Pakistan, should evaluate with the U.S. Agency for
International Development the advantages of detailing one or more U.S. Agency for International
Development officers to positions in the coordinating office for development and economic
affairs, first and foremost as a deputy coordinator, and recruit officers for those positions.
(Action: Embassy Kabul, in coordination with S/SRAP)

       Recently, the USAID mission director stood in for the CDDEA director during a
temporary absence from Kabul. This experience was helpful in both providing USAID
perspectives to the CDDEA coordination process and learning about it from the inside. The
embassy should institutionalize this procedure.

       CFR Informal Recommendation 5: Embassy Kabul should include the U.S. Agency for
       International Development mission director in the rotation to act for the coordinating
       director for development and economic affairs during the latter’s absence from post.




                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Office of Interagency Provincial Affairs

        CDDEA also supervises the work of IPA and its civilian field personnel. Here too,
improvements have been solid, and field personnel laud the IPA linkage. The executive structure
that was established to provide oversight of and support for those in the field appears to be
working well. Communications have improved between the embassy and the field since the
inspection, but there is an undisputed need for IPA to continue to filter taskings from the
embassy to the field.

         Five SCRs now operate at the five regional commands across Afghanistan. Their senior
rank has facilitated the easy and effective civilian-military communications that are essential to
effective operations in the provinces. Their links to the embassy—supplementing biweekly
nation-wide conferences with videoconferencing—keep them integrated with the national effort.
These SCRs are responsible for coordinating the work of all civilians within the regional
command. In practice, this has meant close working ties with both USAID and the U.S.
Department of Agriculture, who are represented at the regional command level by senior
development and senior agriculture officers. SCR interaction with personnel from other entities
in the field, such as the Drug Enforcement Administration and the Bureau of International
Narcotics and Law Enforcement, are less well defined.

        The SCRs were created to have civilian leadership in the field with equivalent rank to
their military counterparts. Assigning Department officers to stretch assignments across the
senior threshold is at odds with this intent. It also appears to have made it more difficult to
cement relations between Department and USAID personnel when the latter are at Senior
Foreign Service ranks.

       CFR Informal Recommendation 6: Embassy Kabul should work with the Office of the
       Special Representative for Afghanistan and Pakistan and the Bureau of Human Resources
       to minimize the number of stretch assignments for the senior civilian representative
       positions in Afghanistan.

        While the roles of the SCR and IPA have been clarified since the 2009 inspection, their
authorities as envisioned by the Ambassador remain a source of interagency tension. The
Ambassador dealt with the thorny question of the appropriate locus for performance evaluation
that was highlighted in the inspection report by issuing an amended letter of instructions to the
SCRs. The role of IPA and contract performance reports was similarly clarified, with IPA to
receive a copy of the reports being sent through normal channels to contracting personnel.

        Improved analytical reporting from the field continues to face several obstacles. Many
field personnel are either temporary Department employees who lack reporting experience or
employees of other agencies who often believe that reporting detracts from their agency’s
primary field goals. Beginning with predeployment training materials and courses, the embassy
has emphasized informal event- or project-based input for IPA’s daily activities report (e.g.,
conferences attended, projects launched, and visitors received). Finally, formal cables must pass
through as many as four levels of clearances in the field before beginning a sometimes-
cumbersome embassy-level clearance process. This can delay reporting for days or weeks, affect
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

the timeliness of a response, and serve as a disincentive for further reporting. IPA uses a
spreadsheet to tracks cables once they reach the embassy, but it is not provided to field
personnel. The CFR team and IPA discussed how to make this a more productive and transparent
management tool.

       CFR Informal Recommendation 7: Embassy Kabul should review and streamline its
       clearance procedures for cables, including those from the field, by issuing formal
       guidance from the front office underscoring its informal 48-hour rule for clearance and
       transmittal of reporting cables, allowing drafters to consider nonresponses after that time
       as acquiescence, and making approvers responsible for transmission rather than recalling
       drafters.

       CFR Informal Recommendation 8: Embassy Kabul should build upon the Office of the
       Interagency Provincial Affairs cable tracking system by moving it to a SharePoint
       platform, which would allow input by, and offer visibility to, those in the field.

Border Coordinator

        The border coordinator is among the highest ranking officers in the embassy but has no
staff and has not been given authority over the activities of other embassy sections and agencies
to actually achieve the intent of establishing the position. The incumbent has made useful
contributions and is well regarded by both embassy and field personnel. However, truly
empowering the position would cut across the lines of other established coordination
mechanisms, adding to an already complex and heavy management structure.

CFR Recommendation 3: Embassy Kabul, in coordination with the Office of the Special
Representative for Afghanistan and Pakistan and the Bureau of Human Resources, should
reevaluate the border coordinator position, clarify its authorities and responsibilities, and
determine a more appropriate grade and organizational placement for it. (Action: Embassy
Kabul, in coordination with S/SRAP and DGHR)




                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Rule of Law and Law Enforcement
        The rule-of-law and anticorruption offices have been completely restructured since the
2009 inspection. Comprehensive strategies for both rule-of-law and anticorruption activities
were approved by the National Security Council in 2010 and are being implemented in
conjunction with the Civilian Military Integrated Campaign plan. An ambassadorial-level
coordinating director now has program and policy responsibilities for the full range of rule-of-
law activities, including justice sector assistance programs, counternarcotics, and anticorruption.
He oversees the Embassy Kabul offices of the Bureau of International Narcotics and Law
Enforcement Affairs, Department of Justice, Federal Bureau of Investigation, Drug Enforcement
Administration, Department of Homeland Security, U.S. Marshals Service, and the rule-of-law
and anticorruption elements of USAID, and works closely with both U.S. and international
military structures.

        A rule-of-law deputies committee—composed of representatives from all related civilian
agencies and counterparts from the military—meets weekly to coordinate and determine rule-of-
law policy, program direction, and operations in order to link subject matter expertise with
operational capabilities. An interagency planning and implementation team (IPIT) supports the
coordinating director and the deputies committee. IPIT is a “one stop shop” for rule-of-law
practitioners in the field, whether civilian or military, and the repository of information and
guidance on related policy and practices. It provides operational and logistical support to rule-of-
law project or program developers at regional centers, PRTs, or district support teams. The IPIT
maintains a Web portal that allows U.S. Government military and civilian rule-of-law personnel
to share information about ongoing projects throughout Afghanistan.




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Public Diplomacy
        In October 2009, the inspection team found a public affairs section in disarray. It was
facing a significantly increased amount of new money without adequate staffing, organization, or
planning to deal with a 100-fold increase in funding from a FY 2009 base of $1.5 million to an
estimated FY 2011 budget of $150 million. Eighteen months later, the PAS has seen its staff
increase from 13 to 44 Americans (35 Department employees and an embedded 9-person
military information support team) and from 19 to 23 LE staff. In anticipation of the surge in
resources, the 2009 inspection team made recommendations in four main areas: strategic
planning, coordination, staffing, and management controls.

        Since that inspection, the section has responded effectively to the challenges noted above,
developing a comprehensive strategic communication plan that has buy-in from both civilian and
military partners. They have put in place a staffing structure that effectively matches human
resources with program funds. They have resolved duplication and confusion of roles that arose
from several ad hoc appointments. While the resulting structure is complicated, it avoids
duplication of functions and operates effectively. The section has undertaken an ambitious,
diverse, and innovative array of new programs tied to the goals and objectives in their strategic
plan.

         Interagency cooperation remains a challenge, as there are many players in the public
diplomacy arena, but coordination is, for the most part, good. The mission makes every effort to
avoid duplication and conflict through frequent meetings and working groups. While interagency
coordination will always be a challenge, the mission appears to be dealing successfully with the
territoriality inherent in any whole-of-government effort.

        Several recommendations of the 2009 inspection focused on ensuring adequate control
over grants and contracts that would emerge from the massive infusion of program money. The
section brought on board a number of grant and contract specialists and has established policies
and procedures to track and manage the flow of program money.

        Public diplomacy (PD) is an important component of the work of the PRTs. Since many
of the individuals who have elements of PD in their portfolios are not PD specialists, PAS,
working with S/SRAP and the Office of Press and Public Diplomacy in the Bureau of South and
Central Asian Affairs (SCA), has made reasonable efforts to provide predeparture training and to
incorporate both on-site training and advice to officers serving in the PRTs.

        Recognizing that the level of funding that currently exists is probably unsustainable, the
section has begun to plan for several transitions: from PRTs to consulates/branch offices, from
American contractors to LE staff, and from an exceptionally massive program budget to a merely
large one.

        With the explosive growth in programs and the expanding pool of participants, ensuring
that the mission remains in contact with the alumni of Department public diplomacy programs is
essential if the Department is to build on their experience to create bridges between our two

                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

nations and peoples. The 2009 inspection made a formal recommendation on the need for a
consolidated database. This recommendation is being reissued.

CFR Recommendation 4: Embassy Kabul should review contact management options,
including those currently in use by protocol, public affairs, and other embassy sections; decide
which option best meets the needs of all embassy sections; and require all embassy elements to
use the same contact management system. (Action: Embassy Kabul)

       PAS continues to handle the audio-visual requirements for the embassy. While the
general services office staff is working with PAS to take over these responsibilities, as detailed in
a formal recommendation in the previous inspection, they have so far only handled small, in-
house community events. The responsibility for non-PD events should be turned over to the
general services office.

CFR Recommendation 5: Embassy Kabul should develop the capacity in the general services
office to handle non-public diplomacy audio-visual work, as well as an arrangement in the
information management office for handling non-public diplomacy digital videoconferences.
(Action: Embassy Kabul)

        The mission has made great strides in ensuring that the full-time PD officers at the
regional platforms are either experienced PD officers or have had adequate training. At the same
time, the creation of the field program unit ensures that these officers, regardless of background,
receive adequate support and guidance. However, these officers do not uniformly receive direct
input regarding their performance from the PAS. Since they are solely devoted to PD work, input
from the PAS leadership should be included in any annual performance review.

       CRF Informal Recommendation 9: Embassy Kabul should establish a mechanism for
       the public affairs officer to either review the employee evaluation report of the full-time
       public diplomacy officers in the regional platforms or provide written input to the rating
       officials.

        With the devolution of grant decisions to the regional platforms, it is unclear that small-
grants committee meetings are being documented. While the field program unit in PAS makes
every effort to avoid duplication, there is no single database. Given the rapid turnover of staff,
minutes of each grant committee meeting at the regional platforms should be documented.

       CFR Informal Recommendation 10: Embassy Kabul should document all small-grants
       committee meetings at regional platforms as well as in Kabul and should create a single
       database of all grants considered.




                                          17
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Consular
        The 2009 inspection’s characterization of consular operations at Embassy Kabul as busy
and effective remains true despite the rapid turnover of staff. With the addition of an assistant
regional security officer for investigations to the consular office in 2010, staffing of the section is
appropriate. Another investigator will be required if special immigrant visa processing begins in
earnest. The LE staff members have received some consular training and have matured in their
roles, providing much needed continuity in the face of the short tours of duty of the American
officers.

        The 2009 inspection identified confusion over future consular space in Kabul and
included a recommendation on this issue. The design of a new office annex, now scheduled for
completion in 2013, included space for a consular section that was based on requirements
approved by both the embassy and the Bureau of Consular Affairs. Subsequently, the bureau and
the embassy expressed a preference to keep the consular section in its current space, asserting
that the newly designed space in the annex did not meet staffing and workload requirements.
This change was discussed during a May 2010 site visit to Kabul by the Bureau of Consular
Affairs and the Bureau of Overseas Buildings Operations, and during in-house discussions at the
Department the following month. The decision that emerged was to move forward with the
project as planned, including the new consular section, with the understanding that the embassy
and the Bureau of Consular Affairs would choose the preferred location for the consular section
locally and use the alternative space for other functional requirements. The embassy, based on an
assessment of its workload growth and projected staffing needs, has decided to keep the consular
section in its current premises. The intent of Recommendation 41 in the previous report was to
ensure that all affected parties coordinated their efforts so that the design of whichever consular
space was chosen for future operations will accommodate the projected staffing complement as
well as the addition of the immigrant and special immigrant visa functions. This requirement has
now been met.

        As described in the 2010 inspection report, the process for visa referrals for those going
for military training in the United States poses a problem for the consular section. There is no
Defense attaché assigned to Embassy Kabul, and the military command, which does not fall
under Chief of Mission authority, cannot formally act as a referring office. Following the
inspection report’s recommendation, the embassy, with the concurrence of the Bureau of
Consular Affairs, put in place an informal process for referring military trainees. This system
continues to function reasonably well. The consular section wisely keeps a careful eye on the
referral process in light of a handful of recent cases where visa recipients have overstayed their
visas.

        Despite the inspection report’s assumption that full issuance of special immigrant visas
(SIVs) under the provisions of the Afghan Allies Protection Act of 2009 would begin in 2010,
processing has begun only for a handful of applicants. No visas have been issued. The embassy
has raised concerns about the thrust of the program and asked that it be suspended for Afghans.
More than 1,800 individuals have submitted applications to the National Visa Center requesting


                                           18
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Chief of Mission letters, the vast majority of whom are current or former employees of
Department of Defense contractors or subcontractors.

        The embassy opposes the brain drain from Afghanistan of rare, highly qualified
individuals. It also questions the realities of the threat environment in individual cases and
highlights the extensive resources needed to implement the program. The embassy’s initiative
was the subject of a March 31, 2011, meeting in the Department that brought together personnel
from the Bureau of Consular Affairs, SCA, the Bureau of Diplomatic Security, the Bureau of
Legislative Affairs, and the Office of the Legal Adviser. The Department, in a response being
drafted at the time of this CFR, says that it is not prepared to go to Congress to ask that the law
be rescinded.

CFR Recommendation 6: Embassy Kabul, in coordination with the Bureau of Consular
Affairs, the Bureau of South and Central Asian Affairs, the Bureau of Diplomatic Security, the
Bureau of Legislative Affairs, and the Office of the Legal Adviser, should fully implement the
issuance of special immigrant visas to qualified individuals in accordance with the Afghan Allies
Protection Act of 2009. (Action: Embassy Kabul, in coordination with CA, SCA, DS, L, and H)

        Parallel to the policy debate about the SIV program for Afghanistan, Embassy Kabul has
laid out its requirements for additional resources to implement the SIV process, particularly
assessing the veracity of the threat to applicants from remaining in Afghanistan, which is
necessary before the visa application can begin. Determining the credibility of the threat is part
of the Chief of Mission approval process. Applicants must receive this approval before they can
apply for their SIVs. The embassy proposes a polygraph procedure to verify threat claims. The
embassy and the Department have been in communication about the polygraph issue for some
time. The OIG team understands that the Department is preparing a response with guidance on
Embassy Kabul’s questions. The ground rules for the Department to authorize polygraphs for
Department employees are laid out in 12 FAM 251. The greatest number by far of potential
applicants for SIVs comes from employees of other U.S. Government agencies. A meeting of the
minds on this subject is a matter of some urgency since the Department has already received a
very large number of requests for SIV processing from Afghans covered by the program.

CFR Recommendation 7: Embassy Kabul, in coordination with the Bureau of Consular
Affairs, the Bureau of South and Central Asian Affairs, the Bureau of Diplomatic Security, the
Bureau of Legislative Affairs, and the Office of the Legal Adviser, should determine the legality
of a policy for the use of polygraphs for employees of both the Department of State and other
U.S Government agencies in ascertaining the bona fides of Afghan applicants for special
immigrant visas under the Afghan Allies Protection Act of 2009. (Action: Embassy Kabul, in
coordination with CA, SCA, DS, L, and H)




                                          19
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management
        The management office during the time of the October 2009 inspection was dealing with
an atmosphere of massive personnel surges, constant reinvention, and multiple construction and
infrastructure projects. The management office was adept at dealing with these issues, but
management control weaknesses and a lack of documentation hindered operations. While the
management section remains extremely busy, the current staff members have focused on
bringing policies and procedures in line with Department standards and consolidating the
improvements they have made. The strong management team has significantly improved its
controls over motor vehicles and overtime, created an effective arrivals and departures unit,
created more transparent procedures for hiring eligible family members, and put in place a
number of standard operating procedures. The embassy issued an updated LE staff handbook
during the course of this CFR. The staff also has better control over R&R travel, although the
cost basis for cost-constructed R&R travel was unrealistically high. This is discussed below.

         The majority of Embassy Kabul’s American staff members are on 1-year tours. Unlike
most embassies, where LE staff remains for years with little turnover and provide continuity and
institutional knowledge, Embassy Kabul is still hiring and training its LE staff. While some LE
staff members have been with the embassy for 4 years or more, a large percentage have been
working there for a much shorter time. The embassy has a knowledge management database to
capture background information, contacts, and procedures that otherwise would be lost with the
high turnover in staff. The management section makes an effort to reissue its most important
policies annually but does not have any procedures to ensure that this is done.

CFR Recommendation 8: Embassy Kabul should reissue management policies every year, at a
minimum, and post them on the embassy’s intranet Web site. (Action: Embassy Kabul)

        All senior employees whose spouses work at the embassy have signed a recusal
memorandum, as required in the previous inspection, but the management section has yet to
issue a policy regarding recusals.

CFR Recommendation 9: Embassy Kabul should issue a management policy detailing the
requirements for recusal memoranda for senior employees whose spouses work at the embassy.
(Action: Embassy Kabul)

        The October 2009 inspection team formally recommended that the embassy include
individual development plans for its LE staff and implement a mission-wide comprehensive
training plan to prioritize the needs of its staff. LE staff evaluations now include training
requirements in the individual development plans. The embassy has sent employees for training,
and hopes to bring trainers to Kabul once space becomes available later in 2011. However, the
embassy has yet to establish or implement a comprehensive and prioritized training plan.
Embassy employees told inspectors that sufficient money has been available for training, and
therefore a formal, prioritized plan has been unnecessary. With the uncertainty surrounding the
budgets for FY 2012 and beyond, a comprehensive training plan will be necessary to ensure that
training funds are spent wisely.

                                         20
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

CFR Recommendation 10: Embassy Kabul should establish and implement a comprehensive
and prioritized mission-wide training plan for locally employed staff. (Action: Embassy Kabul)

       Embassy Kabul is an unaccompanied post but allows spouses who have jobs at the
embassy to come to Kabul. The embassy has a robust eligible family member hiring program and
works with SCA to find employment for all interested spouses. The embassy has created jobs
throughout the mission, from mailroom clerks and cleared escorts to positions in general
services, public affairs, and the medical unit. In summer 2011, the first eligible family member
physician is scheduled to arrive. The embassy anticipates there will be 40 eligible family
member employees in summer 2011. While the embassy complied with the most of the
recommendations made by the last inspection team regarding this program, they have yet to
develop a time line for the hiring process, as was informally recommended.

CFR Recommendation 11: Embassy Kabul should prepare a checklist with time lines to guide
the hiring process for eligible family members. (Action: Embassy Kabul)

        The October 2009 inspection team informally recommended that the embassy maintain
up-to-date medical kits in all official vehicles. Despite the danger faced by embassy employees
who live and work in a conflict area, embassy staff told inspectors that new medical kits have yet
to be ordered or placed in vehicles.

CFR Recommendation 12: Embassy Kabul should provide medical kits in all embassy official
vehicles and should implement procedures to check them regularly to ensure they are complete
and up-to-date. (Action: Embassy Kabul)

OpenNet Computers in Apartments

        Embassy American employees generally work 6 days a week, often for at least 10, and
sometimes more, hours per day. Many employees work several hours on their 1 day off. They
live on the compound, only a few minutes away from their offices. The embassy uses the
Department’s OpenNet Everywhere (ONE) program, which allows staff to access their
unclassified Department emails and documents from home computers through the use of an
encrypted fob. This program, which cost $1 million to install and approximately $600,000 per
year to maintain, is available to all American staff. Employees told inspectors that while the
ONE program was slow at first, now that the servers have been moved to Kabul, the speed and
connectivity are sufficient for their needs. In additional, all housing has a hardwired Internet
connection for personal computers, and wireless Internet is available in certain areas around the
compound.

        The front office proposed installing Department OpenNet unclassified computers in the
embassy’s 146 apartments, at an estimated cost of between $1.2 million and $1.5 million. Annual
maintenance costs for these additional computers would cost approximately $800,000 per year.
Ten apartments already have OpenNet computers. As the OpenNet computers would only be
installed in apartments and not in the containerized housing units where most employees live,
this proposal would not replace the ONE program.

                                         21
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The embassy had received tentative approval from the Bureau of Diplomatic Security and
the Bureau of Information Resource Management, provided a number of conditions could be
met. SCA, however, had not provided funding. In making this request, the embassy stated in a
cable to the Department that the ONE system was too slow to permit the level of communication
required. The inspectors were told the ONE system had the necessary speed and that OpenNet
computers would be no faster than the current ONE program the embassy is using. Installing
these computers, therefore, would have been a duplication of the computer access already
available to the American staff. After this issue was raised by the CFR inspectors, the embassy
tested the speed of the ONE system and determined that it is as fast as OpenNet computers
installed in apartments. The embassy has therefore decided to drop this proposal.

Travel Costs

        American employees are authorized, as part of the Afghanistan service recognition
package, three R&Rs or two R&Rs and three regional rest breaks during the year. The
designated R&Rs points for Embassy Kabul are London (for those who wish to remain overseas)
or the United States. Dubai is the designated regional rest break point. Prior to autumn 2010,
Embassy Kabul was using the highest cost, fully refundable economy, or “Y” fare, for R&R
travel to the United States. In autumn 2010, in compliance with OIG recommendations, the
management office began using lower cost, but still fully refundable, economy fares for this
travel. There are approximately 1,000 employees under Chief of Mission authority who are
eligible for R&Rs. Depending on the number of R&R trips employees take to the United States,
this change saves the taxpayer between $3 million and $9 million per year, according to embassy
calculations.

         At the same time, however, the embassy did not change the fare basis used for overseas
R&R travel to a location other than London, despite information that the actual costs for a round-
trip ticket to London had dropped. Employees traveling to an overseas location other than
London were allowed up to $5,300 on a cost-construct basis. If the cost of the travel was below
$5,300, employees were only reimbursed for the actual travel costs. According to documents
provided embassy staff, the actual roundtrip “Y” fare for Kabul-London-Kabul in September
2010 was $4,691, or $609 less than the cost basis. The lowest cost, fully refundable economy
fare quoted in September 2010 was $3,750, or $1,550 below the cost-construct basis being used.
A proposal to change the cost-construct fare basis was discussed in autumn 2010, according to
embassy staff, but the fare basis was left unchanged. Assuming that each employee took one
overseas R&R on a cost-construct basis from September 2010 through March 2011, the change
to the lowest cost, fully refundable fare could have saved the taxpayers $905,000 in those 7
months.

        The embassy travel office, immediately before the start of this CFR, determined that the
cost basis for overseas R&R cost construct should be approximately $3,800. The day after the
CFR team departed Kabul, embassy management issued a notice stating that the new fare basis
for cost-construct R&R travel to overseas locations would be $3,920. The notice stated that this
amount would be reviewed semiannually. Depending on the number of cost-construct overseas
R&Rs embassy staff takes per year, this change in the cost basis for R&R travel could save
between $1.4 million and $4.1 million per year.
                                         22
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Information Resource Management

        The information management office workload has increased threefold since the October
2009 inspection, growing from 598 OpenNet unclassified computers to 1,805 at the time of this
CFR, while the number of classified computers has doubled. The staff has increased
commensurably. The American staff has grown from 7 at the time of the inspection to 39 today,
while the number of LE staff has doubled from 15 to 29 today. At the same time, the office has
increased communications to nearly 70 remote sites throughout the country, implemented the
ONE program described above, and established a diplomatic post office.

        All but two of the formal and informal recommendations for which the information
management resource office was responsible have been closed. One recommendation regarding a
comprehensive contact database has been reissued in the PD section of this report. The second
recommendation, which called for the development of a standard operating procedure for the
procurement and installation of all information technology equipment embassy-wide, is being
reissued. Embassy staff told inspectors that there are informal procedures in place to ensure that
the information resources management section is aware of information technology procurements.
However, there are no written procedures regarding either procurement or installation of this
equipment. With most American staff members rotating out after only 1 year, written procedures
are vital.

CFR Recommendation 13: Embassy Kabul should develop written standard operating
procedures on the procurement and installation of all information technology equipment
embassy-wide. (Action: Embassy Kabul)




                                         23
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Formal Recommendations
CFR Recommendation 1: The Office of the Special Representative for Afghanistan and
Pakistan, in coordination with the Office of the Deputy Secretary for Management and
Resources, Embassy Kabul, and the Office of the Director of U.S. Foreign Assistance, should
clarify with the U.S. Agency for International Development the oversight and managerial roles
of the various offices and agencies within Embassy Kabul dealing with foreign assistance.
(Action: S/SRAP, in coordination with D(N), Embassy Kabul, and F)

CFR Recommendation 2: Embassy Kabul, in coordination with the Special Representative for
Afghanistan and Pakistan, should evaluate with the U.S. Agency for International Development
the advantages of detailing one or more U.S. Agency for International Development officers to
positions in the coordinating office for development and economic affairs, first and foremost as a
deputy coordinator, and recruit officers for those positions. (Action: Embassy Kabul, in
coordination with S/SRAP)

CFR Recommendation 3: Embassy Kabul, in coordination with the Office of the Special
Representative for Afghanistan and Pakistan and the Bureau of Human Resources, should
reevaluate the border coordinator position, clarify its authorities and responsibilities, and
determine a more appropriate grade and organizational placement for it. (Action: Embassy
Kabul, in coordination with S/SRAP and DGHR)

CFR Recommendation 4: Embassy Kabul should review contact management options,
including those currently in use by protocol, public affairs, and other embassy sections; decide
which option best meets the needs of all embassy sections; and require all embassy elements to
use the same contact management system. (Action: Embassy Kabul)

CFR Recommendation 5: Embassy Kabul should develop the capacity in the general services
office to handle non-public diplomacy audio-visual work, as well as an arrangement in the
information management office for handling non-public diplomacy digital videoconferences.
(Action: Embassy Kabul)

CFR Recommendation 6: Embassy Kabul, in coordination with the Bureau of Consular
Affairs, the Bureau of South and Central Asian Affairs, the Bureau of Diplomatic Security, the
Bureau of Legislative Affairs, and the Office of the Legal Adviser, should fully implement the
issuance of special immigrant visas to qualified individuals in accordance with the Afghan Allies
Protection Act of 2009. (Action: Embassy Kabul, in coordination with CA, SCA, DS, L, and H)

CFR Recommendation 7: Embassy Kabul, in coordination with the Bureau of Consular
Affairs, the Bureau of South and Central Asian Affairs, the Bureau of Diplomatic Security, the
Bureau of Legislative Affairs, and the Office of the Legal Adviser, should determine the legality
of a policy for the use of polygraphs for employees of both the Department of State and other
U.S Government agencies in ascertaining the bona fides of Afghan applicants for special
immigrant visas under the Afghan Allies Protection Act of 2009. (Action: Embassy Kabul, in
coordination with CA, SCA, DS, L, and H)

                                          24
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

CFR Recommendation 8: Embassy Kabul should reissue management policies every year, at a
minimum, and post them on the embassy’s intranet Web site. (Action: Embassy Kabul)

CFR Recommendation 9: Embassy Kabul should issue a management policy detailing the
requirements for recusal memoranda for senior employees whose spouses work at the embassy.
(Action: Embassy Kabul)

CFR Recommendation 10: Embassy Kabul should establish and implement a comprehensive
and prioritized mission-wide training plan for locally employed staff. (Action: Embassy Kabul)

CFR Recommendation 11: Embassy Kabul should prepare a checklist with time lines to guide
the hiring process for eligible family members. (Action: Embassy Kabul)

CFR Recommendation 12: Embassy Kabul should provide medical kits in all embassy official
vehicles and should implement procedures to check them regularly to ensure they are complete
and up-to-date. (Action: Embassy Kabul)

CFR Recommendation 13: Embassy Kabul should develop written standard operating
procedures on the procurement and installation of all information technology equipment
embassy-wide. (Action: Embassy Kabul)




                                         25
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

CFR Informal Recommendation 1: Embassy Kabul should organize a roster of staff assistants
in the executive secretariat so that no more than two individuals will be on duty at the same time.

CFR Informal Recommendation 2: Embassy Kabul should utilize section officers rather than
staff assistants to accompany the Ambassador on his in-country travel.

CFR Informal Recommendation 3: Embassy Kabul should relocate the executive secretary to
the space in the front office freed up by reducing staff assistant presence from four to two. The
deputy executive secretary could remain in the current office of the executive secretariat, which
will provide needed file, work, and swing space.

CFR Informal Recommendation 4: Embassy Kabul should empower staff assistants to make
final edits and release cables and memoranda approved by the Ambassador, the deputy chief of
mission, and the assistant chief of mission.

CFR Informal Recommendation 5: Embassy Kabul should include the U.S. Agency for
International Development mission director in the rotation to act for the coordinating director for
development and economic affairs during the latter’s absence from post.

CFR Informal Recommendation 6: Embassy Kabul should work with the Office of the Special
Representative for Afghanistan and Pakistan and the Bureau of Human Resources to minimize
the number of stretch assignments for the senior civilian representative positions in Afghanistan.

CFR Informal Recommendation 7: Embassy Kabul should review and streamline its clearance
procedures for cables, including those from the field, by issuing formal guidance from the front
office underscoring its informal 48-hour rule for clearance and transmittal of reporting cables,
allowing drafters to consider nonresponses after that time as acquiescence, and making approvers
responsible for transmission rather than recalling drafters.

CFR Informal Recommendation 8: Embassy Kabul should build upon the Office of the
Interagency Provincial Affairs cable tracking system by moving it to a SharePoint platform,
which would allow input by, and offer visibility to, those in the field.

CRF Informal Recommendation 9: Embassy Kabul should establish a mechanism for the public
affairs officer to either review the employee evaluation report of the full-time public diplomacy
officers in the regional platforms or provide written input to the rating officials.


                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

CFR Informal Recommendation 10: Embassy Kabul should document all small-grants
committee meetings at regional platforms as well as in Kabul and should create a single database
of all grants considered.




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                            Name                     Arrival Date

Ambassador                                  Karl W. Eikenberry       June 2009
Deputy Chief of Mission                     Earl Anthony Wayne       June 2009
Assistant Chief of Mission                  James Keith              May 2010
Coordinating Director of Development
       and Economic Affairs                 William Todd             June 2010
Coordinating Director for Rule of Law
       and Law Enforcement                  Hans Klemm               July 2010

Chiefs of Sections:

Management                                  Kevin Milas              July 2009
Consular                                    Nikolas Trendowski       July 2010
Political                                   Michael Adler            July 2010
Political Military                          David Marks              July 2010
Economic                                    James Boughner           July 2010
Public Affairs                              Matthew Lussenhop        August 2010
Regional Security                           J. Greg Hays             June 2010
Rule of Law                                 Richard Driscoll         August 2010
Inter-Provincial Affairs                    Dawn Liberi              August 2009
RAO                                         Chris Wood               December 2010
INL                                         Bruce Turner             July 2010

Other Agencies:

Department of Agricultural                  James Butler             September 2010
Department of Defense                       Jay Hood                 September 2010
Foreign Commercial Service                  Robyn Kessler            June 2010
U.S. Agency for International Development   Earl W. Gast             June 2010
Drug Enforcement Administration             Mike Marsac              October 2008
U.S. Marshals Service                       Walter Sanborn           January 2011
Federal Bureau of Investigation             Stephen Vogt             November 2010
Department of Transportation                Jan Brecht-Clark         March 2011
Department of Homeland Security             Raul Ortiz               April 2011
Department of Justice                       Amy Matchison (acting)   June 2010
Department of the Treasury                  William Block            August 2010
Department of Health and Human Services     Michael Lyman            March 2011
SIGAR                                       Monica Brym              January 2010




                                        28
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Abbreviations

CDDEA        Coordinating Director for Development and Economic Affairs
CFR          Compliance follow-up review
Department   Department of State
DS           Bureau of Diplomatic Security
IPA          Interagency Provincial Affairs
IPIT         Interagency Planning and Implementation Team
LE           Locally employed (staff)
OIG          Office of Inspector General
ONE          OpenNet Everywhere
PAS          Public affairs section
PD           Public diplomacy
PRT          Provincial Reconstruction Team
R&R          Rest and Relaxation
SCA          Bureau of South and Central Asian Affairs
SCR          Senior Civilian Representative
SIV          Special immigrant visa
S/SRAP       Special Representative for Afghanistan and Pakistan
USAID        U.S. Agency for International Development




                                      29
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


APPENDIX I: Status of 2009 Inspection Formal
Recommendations
Recommendation 1: Embassy Kabul should capture all the new positions and resources that it
needs to implement its counterinsurgency strategy in the FY 2012 Mission Strategic Plan.
(Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul, SCA, and S/SRAP held interagency staffing workshops in April
and September 2010. Embassy Kabul reported on October 1 that the latest results were to be
finalized by the end of November. Post later reported that staffing needs are a moving target as
additional requirements are placed on post. Nonetheless, Kabul management has captured the
general proposed resource requirements pertaining to counterinsurgency strategy through 2015 in
the Mission Strategic and Resource Plan, and it continues to track uplift positions in conjunction
with SCA and adjust resource requirements and projections as mission priorities change.

Recommendation 2: Embassy Kabul should reorganize the staff assistant operation so that the
executive secretary manages a rotating schedule of responsibilities for the three staff assistants to
include facilitating paper flow, note taking, country team follow-up, travel, and other support
activities as required. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul executive secretary put into place a series of standard operating
procedures, and staff assistants have been cross-trained on front office tasks. Four informal
recommendations were issued in the CFR to further improve the work of the executive
secretariat.

Recommendation 3: Embassy Kabul should streamline its clearance process, using staff
assistants to make nonsubstantive changes to end products, initiating in-house tradecraft training,
if necessary, to encourage better products from initial drafters, and reducing the number of
clearing officers wherever possible. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul reported that it made the recommended changes, and the
clearance process is improved.

Recommendation 4: Embassy Kabul should develop, implement, and enforce a protocol for
official visitors that requires travelers to submit their preferred programs, including in-country
travel, at least 72 hours before the group’s arrival in Afghanistan to allow for adequate logistical
preparation. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.
                                          30
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: Post reported that it had the recommended procedure in place. The embassy
noted, however, that, to be effective, this rule needs to be enforced among visitors coming to
Afghanistan from Washington as well as at post.

Recommendation 5: The Office of the Special Representative for Afghanistan and Pakistan
should coordinate all routine high-level communications between the Department, the National
Security Council, and Embassy Kabul and restrict such communications with the Embassy to
between 6:00 a.m. and 9:00 p.m. Kabul time. (Action: S/SRAP)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: S/SRAP and SCA jointly responded that they strongly agree. Several regularly
scheduled meetings have been shifted to earlier time slots to be respectful of the time difference
in Kabul. This issue requires constant vigilance on the part of embassy leaders and senior
officials in Washington.

Recommendation 6: The Office of the Special Representative for Afghanistan and Pakistan
should ask the Joint Staff to reschedule its routine weekly Friday teleconferences with Embassy
Kabul during official Kabul working hours. (Action: S/SRAP)

Pre-CFR Status: Closed on the basis of acceptable noncompliance.

CFR Findings: OIG closed this recommendation for acceptable noncompliance in light of the
fact that efforts to persuade the Joint Staff to reschedule its weekly teleconference with Embassy
Kabul have been unsuccessful.

Recommendation 7: Embassy Kabul should assign a team or unit in its political section to
follow Afghanistan’s relations with Iran and other neighboring countries on a full-time basis.
(Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The political section has created a two-person external affairs unit, headed by the
deputy political counselor, which has responsibility for all neighboring states, including Iran.
The external affairs unit works closely with the border coordinator, economic section, and
political-military section.

Recommendation 8: The Foreign Service Institute should develop online modules in the
history, politics, and culture of Afghanistan, and in reporting trade craft that can be added to the
predeployment training of officers who will have political reporting and analysis responsibilities
on provincial reconstruction teams. (Action: FSI)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: All personnel assigned under Chief of Mission authority to Afghanistan take a
series of courses at the Foreign Service Institute that provide information on the culture, history,
                                          31
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and political issues of Afghanistan. The Foreign Service Institute developed a Basic Writing and
Reporting Skills for Afghanistan-Bound Chief of Mission Personnel manual for officers
deploying to Afghanistan, which is used during the required predeployment training courses and
for any remedial work with officers already in Afghanistan.

Recommendation 9: The Office of the Special Representative for Afghanistan and Pakistan
should collect and convey the reporting needs of Washington consumers to Embassy Kabul by
providing the mission with a periodic summary of key areas of reporting interest that reflect the
needs of all consumers while consolidating and prioritizing needs, wherever possible, to reduce
ad hoc requests. (Action: S/SRAP)

Pre-CFR Status: Resolved/open.

CFR Findings: The Afghanistan desk consulted with stakeholders throughout the Department
and prepared a cable describing reporting priorities. The Special Representative for Afghanistan
and Pakistan approved the cable, and it was transmitted to the mission (11 State 26252). This
recommendation is closed.

Recommendation 10: Embassy Kabul should produce a strategic reporting plan for political
issues and link it to resource planning through the Mission Strategic Plan. (Action: Embassy
Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul has a quarterly reporting plan dated April 2011.

Recommendation 11: Embassy Kabul should prepare a quarterly cable summarizing key
political developments and trends in addition to its daily reporting. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul prepares a cable on a rough bimonthly basis that gives an
overview of political developments and trends.

Recommendation 12: Embassy Kabul should appoint an experienced biographics coordinator,
and that coordinator should construct appropriate databases of information on key Afghan
leaders and potential leaders to assist in identifying effective interlocutors. (Action: Embassy
Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: An officer in the political section has been designated as biographic coordinator.

Recommendation 13: Embassy Kabul should assign responsibility for oversight of large-scale
grants for the advancement of women’s rights to an agency with development experience.
(Action: Embassy Kabul)
                                          32
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul has assigned responsibility for oversight of large-scale grants for
the advancement of women's rights to USAID. Despite the intention of the recommendation, the
political section has retained management of a small-grants program totaling $4.5 million in
Economic Support Funds over 3 fiscal years, and a political officer has a grant warrant and
training. The political section works closely with PRT representatives who can refer grantees and
monitor the projects. Neither the grants officer nor the formal grants officer representative, a
local employee, has been able to travel to the field to directly monitor grants outside Kabul. The
CFR team was not able in its limited stay in Kabul to review actual grant documentation,
including grantee reports and evaluations. The original recommendation remains closed on the
basis of acceptable noncompliance.

Recommendation 14: Embassy Kabul should reorganize its political section into at least two
units, headed by officers who can replace the deputy counselor when necessary. (Action:
Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul has reorganized the section into four units, covering
democracy/rule of law; politics and government; reconciliation and conflict resolution; and
external-multilateral-regional affairs, respectively.

Recommendation 15: Embassy Kabul should streamline and consolidate its planning system by
reducing the number of working groups, focusing agendas on decisions to be made, and keeping
formal records of all meetings that reflect agreement by all agencies on what decisions were
reached. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: The national level working groups are integral to the Integrated Civilian-Military
Campaign Plan process. These 15 working groups are co-led by civilian and military personnel
and are responsible for further development, monitoring, and assessment of their respective
campaign objectives. Most of the working groups meet biweekly, although five of them meet
weekly. The working groups keep minutes of their meetings and brief the Ambassador on a
quarterly basis. The working groups feed into the executive working group, for which CDDEA
serves as executive secretary. The political-military section’s civilian-military planning and
assessment subsection provides a planner to each of the working groups and advises on the
planning and assessment processes. The inspection team concluded that the structure, while
cumbersome, is necessary to achieve vital civilian-military coordination and progress toward
U.S. national security goals. This recommendation is closed.

Recommendation 16: Embassy Kabul should keep minutes of all regularly scheduled meetings
between the Ambassador and the commander of U.S. military forces in Afghanistan, ensuring
that the minutes reflect agreement by both sides on what decisions were reached. (Action:
Embassy Kabul)
                                         33
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The International Security Force for Afghanistan takes notes for the biweekly
principals' committee meetings, with a focus on decisions and action items; these minutes are
now shared with the embassy. The embassy political-military section takes notes for the civilian-
military executive working group meetings and shares with all participants as well as the front
office.

Recommendation 17: Embassy Kabul should add an administrative assistant to its political-
military section, using an eligible family member or other appropriate hiring mechanism, to take
over the clerical aspects of civilian-military planning meetings and required Leahy Amendment
vetting. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The embassy has established the recommended position. No eligible family
members were immediately available, but one has been identified and is slated to arrive in
summer 2011.

Recommendation 18: Embassy Kabul, in coordination with the Bureau of Administration,
should implement policy decisions in accordance with acquisition and grant law and regulations,
including the requirements that contract and grant changes be authorized by warranted contract
and grant officers.

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul initially responded that implementation was under way. In a
later update the embassy reported that “changes to grants and contracts are authorized by
warranted grants and contract officers.”

Recommendation 19: Embassy Kabul should amend and reissue the letter of instruction from
the Ambassador to the senior civilian representatives in the regional commands to bring the text
into harmony with contractual obligations regarding direction and performance evaluations of
other agency contractors and indicating that responsibility for direction and performance
evaluations must remain with the employing agency. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul has reissued the letter of instructions from the Ambassador to
the senior civilian representatives in the regional commands. This recommendation is closed.

Recommendation 20: Embassy Kabul should conduct a review of the rules, regulations, and
practices of all agencies with employees under chief of mission authority in Afghanistan and
amend guidance as necessary so that performance evaluations are done in accordance with the
appropriate rating system. (Action: Embassy Kabul)

                                         34
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Resolved/open.

CFR Findings: The Ambassador’s letter of instruction, dated February 28, 2011, to the SCRs
clarifies the performance evaluation process for field presence personnel. While responsible for
ensuring that appropriate performance evaluations are prepared for all field personnel under
Chief of Mission authority, it gives them direct control only over Department evaluations. In the
case of personnel from other agencies, SCR input is to be solicited and reflected in the
evaluation. This recommendation is closed.

Recommendation 21: Embassy Kabul should authorize activity managers and contracting
officer technical representatives in the field to send technical performance reports on
implementing partners and development projects directly to the corresponding agency’s
contracting office at the embassy at the same time that they send such reports to the interagency
provincial affairs office. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: USAID/Afghanistan issued Mission Order 103-02, Delegation of Authorities to
USAID Afghanistan Regional Missions, on September 23, 2010, notifying activity managers and
contracting officer technical representatives to submit the reports directly to the appropriate
contracting officer as well as to IPA.

Recommendation 22: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of International Narcotics and Law Enforcement, should
approve and disseminate a sustainable, comprehensive rule of law strategy, to include program
priorities, interagency staffing and skill needs, and a timeline. (Action: S/SRAP, in coordination
with INL)

Pre-CFR Status: Resolved/open.

CFR Findings: The Rule of Law Strategy was approved by the Special Representative for
Afghanistan and Pakistan on November 4, 2010. The embassy is implementing that strategy. It is
being updated in light of the Administration’s December 2010 Afghanistan-Pakistan Annual
Review and the updated Integrated Civil-Military Campaign Plan. This recommendation is
closed.

Recommendation 23: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of South and Central Asian Affairs and the Bureau of
International Narcotics and Law Enforcement Affairs, should approve an anticorruption strategy
and authorize the allocation of assistance funding to support that strategy. (Action: S/SRAP, in
coordination with SCA and INL)

Pre-CFR Status: Resolved/open.

CFR Findings: The Anti-Corruption Strategy was approved by the Principals Committee in early
September 2010. An Anti-Corruption Action Plan was approved by the Deputies Committee
                                          35
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

later that same month. The embassy submitted the plan to Washington in January 2011 and is
now in the process of implementing it. This recommendation is closed.

Recommendation 24: Embassy Kabul should review the positions it requested for FY 2010 in
light of the approved anticorruption strategy and assign an anticorruption officer to oversee its
implementation. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The rule-of-law and anticorruption areas have been completely restructured
since the inspection occurred. Embassy Kabul created an ambassadorial-level rule-of-law and
law enforcement coordinating director whose responsibilities include anticorruption. He oversees
a robust coordination and program staff, including a USAID senior anticorruption adviser and
numerous U.S. law enforcement agencies, who work integrally with the International Security
Assistance Force and the U.S. Forces - Afghanistan.

Recommendation 25: The Bureau of International Narcotics and Law Enforcement Affairs
should immediately fill all seven of the in-country contracting officer representative positions.
(Action: INL)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Bureau of International Narcotics and Law Enforcement Affairs had filled
all seven in-country contracting officer representative positions, all of which were filled as of
May 6, 2010.

Recommendation 26: Embassy Kabul should require that all aircraft and crew in the Embassy
Air Pool adhere to the International Civil Aviation Organization crew proficiency, aircraft
maintenance, and aircraft safety standards and that all personnel have appropriate security
clearances. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy officials reported that all aircraft and crew adhere to the International
Civil Aviation Organization requirements for crew proficiency, aircraft maintenance, and aircraft
safety standards. All American crew were cleared to the Secret level at a minimum, while all
non-American crew members have a public trust clearance. This recommendation is closed.

Recommendation 27: Embassy Kabul should expand the border coordinator’s role to include
the coordination of border activities at all borders. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Embassy has redefined the responsibilities of the border coordinator to cover
Afghanistan’s borders with all six of its neighbors. However, the border coordinator has not been
given authority over the activities of other embassy sections and agencies to actually achieve the
                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

intent of establishing the position. Truly empowering the position to do so would cut across the
lines of other established coordination mechanisms, adding to an already complex and heavy
management structure. See CFR Recommendation 3.

Recommendation 28: Embassy Kabul should establish a concise public diplomacy and
communications strategy to set priorities, drive program initiatives, and provide a framework to
judge proposals and should disseminate this plan to all officers, sections, agencies and entities
that conduct public diplomacy activities in Afghanistan. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: A copy of the referenced strategy paper (called the Blue Plan) was obtained by
the inspectors. Interviews with staff confirm that this plan is being used at all levels of public
diplomacy. This recommendation is closed.

Recommendation 29: Embassy Kabul should clarify the role of the director of communication
and public diplomacy in providing policy direction to all personnel under chief of mission
authority in Kabul and in the field who are working on public diplomacy and communications
issues. (Action Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: The CFR team interviewed key members of Embassy Kabul’s country team and
the leadership of the PD section. The team also directly observed the interactions of the director
of communication within the section and across section lines and confirmed that his role is both
clearly defined and that he is effective in carrying out the mandates of his position description.
This recommendation is closed.

Recommendation 30: Embassy Kabul should rationalize and clarify the public diplomacy
staffing structure to eliminate duplication of functions and unclear lines of authority and should
establish a clear organizational chart with work requirements for each position. (Action:
Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Since the last embassy response, the departure of the deputy PAO for
press/embassy spokesperson enabled the PAS to return to a more traditional structure with a
PAO and a pair of deputies with different responsibilities. It also eliminated the confusion
between the information officer and the deputy PAO for press/spokesperson. Although the
structure is complicated, it is reasonable given the large staff of 44 Americans (35 Department
employees and an embedded 9-person military information support team) and 23 LE staff. It
avoids duplication of functions and operates effectively. The CFR team obtained an historical
staffing pattern showing how the section has grown since the initial inspection, what new
positions and structures were created, and who will be assigned. The team also obtained the
organizational charts required by the recommendation. This recommendation is closed.

                                          37
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 31: Embassy Kabul should increase its use and support of the Government
Media Information Center and should clearly define the position and clarify the authority of the
Foreign Service officer advising the center, as well as other U.S. Government staff working
there. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Government Media Information Center was off limits during the CFR;
however, the inspectors were able to observe the participation of the center staff in coordination
meetings and confirmed that PAS and USAID are both using the center as a program venue.

Recommendation 32: The Bureau of South and Central Asian Affairs, in coordination with the
Office of the Special Representative for Afghanistan and Pakistan and Embassy Kabul, should
develop and implement a staffing plan to cover all of the additional public diplomacy programs
to be carried out by the Embassy and should link these new programs to the provision of
additional staff in Kabul. (Action: SCA, in coordination with S/SRAP and Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: At the time of the CFR, there were 44 Americans (35 Department employees and
an embedded 9-person military information support team) and 23 LE staff on board. Bringing LE
staff on board is a slow process given the stringent security clearance process and the need for
the mission to process a very large number of potential local employees. The expansion of the
section has been largely completed. A spread sheet showing the historical and future structure of
the embassy and the staffing flow was obtained by the inspectors.

Recommendation 33: Embassy Kabul should establish a stronger oversight system for issuing
and monitoring grants to ensure that projects are completed according to the proposal, funds
have been expended properly, and grants files include all the required documents. (Action:
Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The mission’s Stratcom section and the executive section both contain grants and
contract managers. A review of the GDMS and SF- 4404 s at post confirmed that files are being
properly executed and documented.

Recommendation 34: Embassy Kabul should request grants training for the locally employed
staff handling grants. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The senior LE staff member who works for the grants and funds executive officer
completed the Department’s grants training in the United States in March 2010.


                                          38
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 35: The Office of the Special Representative for Afghanistan and Pakistan,
in coordination with the Bureau of South and Central Asian Affairs, the Bureau of Human
Resources, and the Foreign Service Institute, should authorize all U.S. direct-hire personnel who
are designated to do public diplomacy at the provincial reconstruction teams to have targeted
diplomacy training, including grants training, and provide other provincial reconstruction teams
officers with some basic public diplomacy (especially media) training. (Action: S/SRAP, in
coordination with SCA, DGHR, and FSI)

Pre-CFR Status: Resolved/open.

CFR Findings: The inspectors spoke with two of the five full-time PD officers at the regional
platforms. Both confirmed that they had received appropriate training and have excellent support
from the field program unit. The IPA has established a PD liaison and cooperation position that
ensures that coordination between the two organizations is adequate. The field program unit is
very effective in providing training, support, and advice not only to PD officers at the regional
platforms but for all staff assigned to PRTs who deal with public diplomacy. Full-time PD
officers in the regional platforms report (and emails confirm) that people at the smaller PRTs and
district support teams who have PD responsibility direct questions to the appropriate experienced
officer. This recommendation is closed.

Recommendation 36: Embassy Kabul should reach out to the entire mission for nominations,
project proposals, and selection committee participation for the International Visitor Leadership
Program and should place more emphasis on seeking out non-English speakers. (Action:
Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Interviews with the officers responsible for this program and a review of
International Visitor Leadership Program records confirm that the mission is reaching out wider,
and that they are making effective use of single country programs that include interpretation.

Recommendation 37: Embassy Kabul should hire a Pashto translator for the public affairs
section, and backup the translator’s work by investigating the availability of private translation
companies and consulting with Embassy Islamabad on cooperation in producing Pashto language
materials. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Pashto translator hired in February 2010 was transferred to Mazar prior to
the CFR, but the section has identified a new person who is in the security clearance pipeline.

Recommendation 38: Embassy Kabul should develop the capacity in the general services
office to handle non-public diplomacy audio-visual work, as well as an arrangement in the
information management office for handling non-public diplomacy digital video conferences.
(Action: Embassy Kabul)

                                         39
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: This has been reissued as CFR Recommendation 5. The general services office
has begun training with the public affairs section on audio-visual requirements. The office has
handled several small community events, but the public affairs section continues to handle the
bulk of the embassy’s audiovisual and digital video conference events.

Recommendation 39: Embassy Kabul, in coordination with the Office of the Legal Adviser,
should clarify the role of the embassy photographer, including issues of supervision, payment
and approval of overtime, and ownership of the photo archive. (Action: Embassy Kabul, in
coordination with L)

Pre-CFR Status: Resolved/open.

CFR Findings: The inspectors obtained a copy of the photo policy. This recommendation is
closed.

Recommendation 40: Embassy Kabul should review, clarify, and where necessary streamline
the policy on when and how the interagency provincial affairs office and other sections and
agencies transmit and coordinate policy and program guidance between the Embassy and the
field to enable more direct communication while maintaining limitations on mandatory taskings.
(Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul issued guidance to the embassy sections, agencies, and field
units in September 2010.

Recommendation 41: Embassy Kabul should request immediate clarification from the Bureau
of Overseas Buildings Operations and the Bureau of Consular Affairs of plans to relocate the
consular section and review any new space configuration to be sure that new premises can
accommodate the additional staff expected in FY 2010 and the return of the immigrant visa
function. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: The 2009 inspection identified confusion over future consular space in Kabul.
The design of a new office annex included space for a consular section that was based on
requirements approved by both the embassy and the Bureau of Consular Affairs. Subsequently,
the bureau and the embassy changed their view and expressed a preference to keep the consular
section in its current space, asserting the newly designed space in the annex did not meet
projected staffing and workload requirements. Follow on discussions, and site visits led to the
decision to move forward with the construction project as planned, including the new consular
section, on the understanding that the embassy and the Bureau of Consular Affairs would choose
the preferred location for the consular section locally. The embassy and bureau have now

                                         40
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

decided to keep the consular section in its current premises. The requirement that all affected
parties participate in the decision has been satisfied, and the recommendation is closed.

Recommendation 42: Embassy Kabul, in coordination with the Bureau of Consular Affairs,
should identify one or more panel physicians and a laboratory facility in Kabul that is capable of
providing reliable physical examinations and x-rays, referring to Centers for Disease Control
guidelines for selecting a panel position. (Action: Embassy Kabul, in coordination with CA)

Pre-CFR Status: Resolved/open.

CFR Findings: Effective December 28, 2010, the embassy signed an agreement for the services
of a panel physician to support immigrant visa processing. The recommendation is closed.

Recommendation 43: Embassy Kabul, in coordination with the Bureau of Consular Affairs,
Embassy Islamabad, and Embassy New Delhi, should send one of its consular officers and one
locally employed staff to observe immigrant visa processing at a consular section in the region
prior to initiating visa processing in Kabul and designate a locally employed supervisor from the
region to oversee initial processing in Kabul. (Action: Embassy Kabul, in coordination with CA,
Embassy Islamabad, and Embassy New Delhi)

Pre-CFR Status: Resolved/open.

CFR Findings: One American and one Afghan employee went to Embassy Islamabad to observe
immigrant visa operations there in preparation for the start up of immigrant visa processing in
Kabul. The recommendation is closed.

Recommendation 44: The Bureau of Consular Affairs should transfer all immigrant visa
processing for persons resident in Afghanistan to Embassy Kabul as soon as the initial surge of
special immigrant visa applications has moved through the pipeline. (Action: CA)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Immigrant visas for individuals resident in Afghanistan are currently processed at
Embassy Islamabad. In accordance with this recommendation, Embassy Kabul made a formal
request to the Bureau of Consular Affairs that this function be transferred to Kabul. The Bureau
of Consular Affairs confirmed in a cable its approval for this initiative to be effective May 1,
2011.

Recommendation 45: The Bureau of Consular Affairs should advise the Department of
Homeland Security to transfer approved petitions for temporary work visas for Afghan residents
to Embassy Kabul. (Action: CA)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul has now received formal approval from the Department for
petition-based nonimmigrant visas to be processed in Kabul effective May 1, 2011.
                                          41
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 46: Embassy Kabul, in coordination with the Bureau of Consular Affairs,
should develop a referral program to address the large number of Afghan trainees that the U.S.
military commands propose for U.S. programs who fall outside the standard referral guidelines.
(Action: Embassy Kabul, in coordination with CA)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul reported in cable 10 Kabul 6872 that the Bureau of Consular
Affairs approved the post’s standard operating procedures for military-sponsored nonimmigrant
visa applicants. The embassy successfully implemented the program in March 2010. It continues
to function reasonably well. The consular section wisely keeps a careful eye on the referral
process in light of a handful of recent cases where visa recipients have overstayed their visas.
This recommendation is closed.

Recommendation 47: Embassy Kabul should require Foreign Service officers assigned to the
two new consulates to take the portions of consular training that deal with American citizen
services regulations and processes before assignment. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Office of Career Development and Assignments in the Bureau of Human
Resources has mandated consular training for officers being assigned to the consulates in Herat
and Mazar-e-Sharif. This began with the 2010 assignments cycle. One individual took the
training in 2010, and others are expected to do so in summer 2011. Consular visits to Herat and
Mazar-e-Sharif take place once a quarter on a rotating basis.

Recommendation 48: Embassy Kabul should rewrite the consular section’s travel plans to
include quarterly oversight and training trips to the consulates in Herat and Mazar-e-Sharif.
(Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The assistant chief of mission approved the consular section’s request for the
recommended travel. A trip schedule will be developed when the consulates become operational.

Recommendation 49: Embassy Kabul should identify the reason it has been unsuccessful in
making the needed corrections to the inventory of on hand vehicles report and request assistance
from the Bureau of Administration to accurately adjust its inventory. (Action: Embassy Kabul)

Pre-CFR Status: Unresolved.

CFR Findings: Embassy Kabul, working with the Motor Vehicle Branch of the Office of
Logistics Management and NEA-SCA/EX, reconciled the motor vehicle inventory in March
2010. The embassy submitted complete and accurate inventories in both 2010 and 2011. This
recommendation is closed.

                                          42
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 50: Embassy Kabul should reconcile the Inventory of On Hand Vehicles
Report to document the reasons for the 95-vehicle discrepancy. (Action: Embassy Kabul)
Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul, working with the Motor Vehicle Branch of the Office of
Logistics Management and the SCA Executive Office, reconciled the motor vehicle inventory in
March 2010. The embassy submitted complete and accurate inventories in both 2010 and 2011.
This recommendation is closed.

Recommendation 51: Embassy Kabul should recover loaned International Cooperative
Administrative Support Services vehicles and return them to the embassy motor pool. (Action:
Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul has recovered the majority of loaned vehicles. The
sections/agencies that still retain International Cooperative Administrative Support Services
vehicles have ordered replacement vehicles, which have yet to be delivered. Until these vehicles
arrive (estimated November 2012), Kabul will continue the loan of these vehicles as operational
needs require. It currently takes up to 24 months from the day the vehicle is ordered to the day it
can be used at post. This recommendation is closed.

Recommendation 52: Embassy Kabul should inform agencies that have been operating loaned
International Cooperative Administrative Support Services vehicles that maintenance and fuel
costs for the period that those agencies have had exclusive use of the vehicles will be charged
directly to the agency. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: As the funding the Department receives for Afghanistan includes monies to pay
for the operations of other resident agencies in the country, including vehicle expenses, there is
no need to charge these agencies for maintenance and fuel costs. Once the funding mechanism
changes and other agencies are once again responsible for their own funding, the embassy should
begin direct charging any agencies that still retain loaned vehicles for fuel and maintenance
costs. This recommendation is closed.

Recommendation 53: Embassy Kabul should cease loaning International Cooperative
Administrative Support Services vehicles to Afghan government agencies. (Action: Embassy
Kabul)

Pre-CFR Status: Unresolved.

CFR Findings: The embassy, following guidance from the Office of Legal Counsel and
Department regulations as stated in 12 FAH-6 H-522.5 h., no longer loans vehicles to Afghan
Government agencies. This recommendation is closed.

                                          43
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 54: Embassy Kabul should schedule regular meetings of the interagency
housing board throughout the year to consider assignments to apartments as well as housing
appeals from employees. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The interagency housing board has met monthly since November 2010 and will
meet more frequently during the summer assignments season. The mission housing office also
conducts e-votes of the board as needed.

Recommendation 55: Embassy Kabul should identify apartments occupied by non-foreign
affairs agency personnel and propose to the interagency housing board the assignment of direct-
hire foreign affairs agency personnel upon the departure of the incumbents, according to the
published priority list for housing. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable noncompliance.

CFR Findings: All mission housing on the embassy compound is government-owned, although
some leased housing is provided adjacent to the compound. The embassy housing policy details
the priority for assignments to apartments and single accommodations, including containerized
housing units.

Recommendation 56: Embassy Kabul should update and reconcile its property inventory in
accordance with the projected schedule and document the reasons for the discrepancies in the
2008 inventory. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable noncompliance.

CFR Findings: Embassy Kabul completed and reconciled its 2009 and 2010 property
inventories. While doing the 2011 inventory, the staff determined that the previous inventories
were inaccurate due to errors in disposing of excess property. With the help of the Bureau of
Administration’s Office of Property Management, the embassy has corrected that error. At the
time of this CFR, the embassy had completed the 2011 inventory and was reconciling. The
documentation for the 2008 inventory was unavailable and therefore it could not be audited or
documented. This recommendation is closed.

Recommendation 57: Embassy Kabul should provide guidance that details the Afghan First
policy while clearly stating the necessary exceptions. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul published a revision of the Afghan First policy on December 15,
2010, that states: “Exceptions to Afghan First include any procurement inconsistent with all
applicable U.S. law governing USG procurement and acting within legal authorities.” This
policy was issued as a management notice rather than as a policy. The embassy stated that it
would reissue it as a policy. This recommendation is closed.
                                         44
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

 Recommendation 58: Embassy Kabul should establish internal review procedures for large
procurements and request contracting assistance when a procurement exceeds the embassy’s
warrant limits. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul established this review. All procurements above $250,000 are
handled by the Regional Procurement Support Office in Frankfurt or by the Office of
Acquisitions Management in the Department. This recommendation is closed.

Recommendation 59: The Bureau of South and Central Asian Affairs should deduct an
appropriate amount from the operations and maintenance contractor’s payment due to the failure
to train local personnel to take over the contractor’s duties. (Action: SCA)

Pre-CFR Status: Closed on the basis of acceptable compliance.

Action Taken: OIG transferred action responsibility to the Bureau of Administration, which
responded that the contract line item numbers included in the contract for training services are
optional performance requirements. Since the contractor has not been ordered to perform, he has
not invoiced for training services, and the government has not paid for any training services.

Recommendation 60: Embassy Kabul should establish and implement an official temporary
duty policy that delineates the terms, calculations, and conditions under which International
Cooperative Administrative Support Services costs of official visitors are recorded and charged
to the sponsoring agency. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul reported that the financial management officer has established a
clear temporary duty policy regarding the terms, rates, and conditions under which ICASS costs
of official visitors are collected. However, as the funding the Department receives for
Afghanistan includes monies to pay for the operations of other resident agencies in the country,
including temporary duty costs, there is no need to charge these agencies at this time. Once the
funding mechanism changes and other agencies are once again responsible for their own funding,
this procedure should be reinstated.

Recommendation 61: Embassy Kabul should review and close all open suspense deposit
abroad accounts. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: All suspense deposit abroad accounts have been cleared.

Recommendation 62: Embassy Kabul should revise, issue, and implement an updated travel
policy that includes the requirement for supervisory authorization, justification, and
documentation. (Action: Embassy Kabul)
                                         45
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul’s post management issued a revised and updated Post Travel
Policy on September 1, 2010, that includes the requirement for supervisory authorization,
justification, and documentation.

Recommendation 63: Embassy Kabul should develop and implement procedures requiring all
travel authorizations to show the authorized itinerary and authorized cost. (Action: Embassy
Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: The embassy lists the authorized itinerary and authorized cost on all travel
authorizations. Prior to fall 2010, the embassy purchased the highest priced, fully refundable
economy, or “Y”, fares for R&R travel to the United States In fall 2010, the embassy began
using the lowest cost, fully refundable ticket available at the time of purchase, for an average
savings of $2,927 per trip. The embassy estimates that this change will save taxpayers between
$3 million and $9 million per year, depending on the number of R&R trips to the U.S. each year.
This recommendation is closed.

Recommendation 64: Embassy Kabul, in coordination with the Bureau of South and Central
Asian Affairs, should identify and approve cost-constructive routes for rest and recuperation
travel and document all cost-constructive travel with the associated costs. (Action: Embassy
Kabul, in coordination with SCA)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul identified cost-constructive routes for R&R travel in its revised
travel policy. However, the cost basis was not changed until this issue was raised by the CFR
team. This is discussed in more detail in the resources management narrative. This
recommendation is closed.

Recommendation 65: The Bureau of Resource Management, in coordination with the Bureau
of Administration, should conduct an audit of all rest and recuperation travel; performed by
Embassy Kabul employees in FY 2009 to verify that travel was based on the most cost efficient
routes, that the proper cost constructive basis was used, and that all premium class travel was
properly approved and justified. (Action: RM, in coordination with A)

Pre-CFR Status: Closed on the basis of acceptable noncompliance.

CFR Findings: The Bureau of Resource Management did not concur with the recommendation
as stated, because its Office of Global Financial Services is neither designated nor resourced to
conduct post-specific reviews. The Bureau of Resource Management added that premium class
travel will be included in its current oversight program for travel and improper payment reviews.


                                         46
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 66: Embassy Kabul should review its current system for controlling travel
within Afghanistan and establish procedures that require all official travel to be approved in
advance by the chief of mission or his designee; distinguish official from unofficial travel;
protect the U.S. Government from liability for nonofficial travelers; and allocate costs, including
collecting the cost of trips from temporary duty employees and visitors on official travel when
appropriate. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul on February, 23 2011, published a mission security travel policy
to establish procedures for controlling travel within Afghanistan. The policy addresses official
and nonofficial travel, and ground and air movement for civilians under Chief of Mission
authority. Embassy management developed, and the Office of the Legal Adviser approved, a
liability waiver for non-U.S. Government employees traveling on Embassy Air. The embassy
began using this waiver during this CFR. As the funding the Department receives for
Afghanistan includes monies to pay for the operations of other agencies in the country, there is
no need to collect the travel costs of temporary duty employees and official visitors. This
recommendation is closed.

Recommendation 67: Embassy Kabul, in coordination with the Bureau of South and Central
Asian Affairs, should establish a streamlined system for administering the eligible family
member program and for addressing weaknesses including transparency, recruitment and
selection of candidates, and documentation. (Action: Embassy Kabul, in coordination with SCA)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul has developed and implemented standard operating procedures
to create, classify, and advertise positions and to select candidates. A checklist of required
documentation is included in each eligible family member personnel folder to ensure that all
required steps and documents are included, although it is not yet being used in all cases. All
vacancies are advertised on the Department’s Assignment Afghanistan Web site.

Recommendation 68: Embassy Kabul, in coordination with the Bureau of Human Resources
and the Office of the Legal Adviser, should develop, document, and implement a formal and
comprehensive nepotism review process and then seek approval of the revised process from the
Department. (Action: Embassy Kabul, in coordination with HR and L)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul, in coordination with the Bureau of Human Resources and the
Office of the Legal Adviser, has developed and implemented a standard operating procedure
related to a formal nepotism review for all eligible family members.

Recommendation 69: Embassy Kabul, in coordination with the Bureau of Human Resources
and the Office of the Legal Adviser, should finalize the recusal memoranda for senior employees

                                          47
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

whose spouses work at the Embassy and issue a formal notification to appropriate mission staff.
(Action: Embassy Kabul, in coordination with HR and L)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The recusal memos, cleared by the Bureau of Human Resources and the Office of
the Legal Adviser, have been signed by all senior staff whose spouses work at the embassy. A
management notice was issued as formal notification to appropriate mission personnel. A
management policy regarding the need for senior employees whose spouses work at the embassy
to file a recusal notice is needed. CFR Recommendation 9 addresses this concern.

Recommendation 70: Embassy Kabul should establish and implement a mission-wide
comprehensive training plan including the preparation of individual development plans for the
locally employed staff and should make that plan available to American supervisors. (Action:
Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: This has been reissued as CFR Recommendation 10. All LE staff have work
development plans. However, the embassy has yet to develop a formal mission-wide
comprehensive training plan.

Recommendation 71: Embassy Kabul should review and modify its current departure checkout
sheet to disseminate clear guidance and procedures and require all departing employees to
complete the checkout process before their airline tickets are issued. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul’s newly formed arrivals and departures unit has established
checkout procedures for personnel and posted them on the embassy’s intranet site. Due to e-
ticketing, the embassy cannot hold tickets for outgoing personnel. Departure unit employees
meet each departing convoy to ensure that badges, cell phones, and keys are returned to the
embassy. This recommendation is closed.

Recommendation 72: The Bureau of Human Resources, in coordination with the Bureau of
South and Central Asian Affairs, should establish a mechanism to manage all categories of
personnel assets in Afghanistan using the Department’s standard automated application for post
personnel. (Action: HR, in coordination with SCA)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The Bureau of Human Resources and SCA have established a procedure so that
all categories of personnel, including temporary duty employees, are included in a single
document over which SCA has responsibility.


                                         48
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 73: Embassy Kabul should involve the information management section in
the Mission Strategic Plan exercise and identify specific benchmarks for the future development
of information technology, as appropriate. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul included the information management section in the most recent
Mission Strategic and Resource Plan exercise.

Recommendation 74: Embassy Kabul should develop standard operating procedures on the
procurement and installation of all information technology equipment embassy-wide. (Action:
Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: This has been reissued as CFR Recommendation 13. While informal procedures
are in place to keep the information resource management office informed of computer-related
procurements, written standard operating procedures have yet to be written.

Recommendation 75: Embassy Kabul should work with the United States Agency for
International Development to convert the Afghanistan information technology pilot plan into a
formal OpenNet consolidation project plan and include new target dates. (Action: Embassy
Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul completed the USAID personnel transition to OpenNet in
January 2011. A few remaining workstations retained access to AIDNet to allow staff access to
USAID-specific programs. This recommendation has been superseded by a State-USAID
agreement for a consolidated information technology platform (11 State 014838, dated February
17, 2011). This recommendation is closed.

Recommendation 76: Embassy Kabul should submit all United States Agency for International
Development applications to the local change control board for review. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul reported that all major USAID applications have been vetted
and approved by the change control board for use on OpenNet. In addition, all minor
applications, hardware, and software items that needed review and approval have been vetted
and approved by the local change control board for use on OpenNet.

Recommendation 77: Embassy Kabul should reorder information management priorities until
the arrival of a full-time information systems security officer and perform all required
information systems security officer duties in a timely manner.

                                         49
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Pre-CFR Status: Unresolved.

CFR Findings: A full-time dedicated information systems security officer arrived on November
7, 2010. An additional staff member acts as alternate information systems security officer, as
needed. This recommendation is closed.

Recommendation 78: Embassy Kabul should establish an automated recording for after-hours
use that directs emergency callers to a duty officer and should cease telephone operator service
after normal business hours. (Action: Embassy Kabul)

Pre-CFR Status: Unresolved.

CFR Findings: Embassy Kabul disagreed with the recommendation, stating that a 24-hour
bilingual operator service is vital for operating in a conflict zone. While inspectors had observed
that there were very few calls to the embassy operator after 8:00 p.m. local time, OIG defers to
the judgment of mission management that 24-hour bilingual operator service is essential.
Recommendation 78 is closed for acceptable noncompliance.

Recommendation 79: Embassy Kabul should form a committee to review Department-
approved contact management options and those data bases currently in use by protocol and
other embassy sections, decide which option best meets the needs of all embassy sections, and
require all embassy elements to use the same contact management system. (Action: Embassy
Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: This has been reissued as CFR Recommendation 4.

Recommendation 80: Embassy Kabul should develop and implement individual development
plans for locally employed information technology staff to include information assurance and
radio systems. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: All LE staff members in the information resource management office have
individual development plans. Some, but not all, employees have received training. The embassy
would like to bring a trainer to provide the Information Assurance Systems Administration
training on site. However, this has yet to occur.

Recommendation 81: Embassy Kabul should appoint a management controls coordinator and
disseminate this information in a revised designations of authorities administrative notice.
(Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.


                                          50
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Findings: The embassy appointed the assistant chief of mission as management controls
officer.

Recommendation 82: Embassy Kabul should establish, implement, and disseminate an updated
policy on overtime that requires complete documentation and valid justifications for the
additional hours and sets up a process for a monthly management review. (Action: Embassy
Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: The post support unit in Charleston now handles time and attendance, including
overtime, for Embassy Kabul. The embassy issued an updated overtime policy that details the
documentation required. The post support unit, which provides monthly reviews of overtime, has
finalized the procedures for quarterly oversight reports of all overtime payments. The first report
was scheduled to be issued in May 2011. This recommendation is closed.

Recommendation 83: Embassy Kabul should establish, implement, and disseminate a policy on
use of representational funds, redistribution of funds during the fiscal year, and dollar limits for
various types of activities. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul established and published a policy on use of representational
funds on May 2, 2010. This recommendation is closed.

Recommendation 84: Embassy Kabul should establish and implement procedures for
representational vouchers that require clear documentation of attendees, costs, and justification
for the event. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul established and published a policy on use of representational
funds on May 2, 2010. This recommendation is closed.

Recommendation 85: Embassy Kabul should request, and the Bureau of Administration should
perform, a site visit to provide specific guidance to board members, review internal controls, and
establish strengthened procedures for employee association operations. (Action: Embassy Kabul,
in coordination with A)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: Embassy Kabul reported that the Office of Commissary and Recreation Affairs
visited post in May 2010. Since none of the current members were on the board during that visit,
the embassy has requested another support visit. This recommendation is closed.


                                          51
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 86: Embassy Kabul should reassess the current reimbursement process and
develop a system that provides for the reimbursement of the actual number of meal tickets
accepted by the food services contractor. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul and the employee association developed and issued a standard
operating procedure regarding meal ticket reimbursement in December 2009. This
recommendation is closed.

Recommendation 87: Embassy Kabul should conduct an audit of the meal ticket program that
justifies administrative costs and a reasonable profit margin and establishes cost centers to assure
that each cost center is self-sustaining. (Action: Embassy Kabul)

Pre-CFR Status: Resolved/open.

CFR Findings: Embassy Kabul conducts monthly audits of the meal tickets, as called for in the
December 2009 standard operating procedures. The association provided its unaudited profit-loss
statement for the first 3 months of calendar year 2011, which shows that all separate cost centers
made a profit and that no cost center subsidizes another. This recommendation is closed.

Recommendation 88: Embassy Kabul should review the current limits on alcohol sales,
establish and implement limits, and monitor sales of duty-free alcohol by the Kabul Embassy
Employee Association. (Action: Embassy Kabul)

Pre-CFR Status: Closed on the basis of acceptable compliance.

CFR Findings: The employee association now limits the amount of alcohol that can be sold to
authorized diplomatic personnel. Sales, including the employee badge number, are recorded at
the time of the sale. The rules regarding the sale of alcohol are posted in the association store.

Recommendation 89: Embassy Kabul should request, and the Kabul Embassy Employee
Association should return, funds paid to the association for five used shipping containers fitted as
retail sales space. (Action: Embassy Kabul)

Pre-CFR Status: Unresolved.

CFR Findings: Based on an opinion by the Office of the Legal Adviser, Embassy Kabul is not
legally required to seek reimbursement for the shipping containers. This recommendation is
therefore closed.




                                          52
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


APPENDIX II: Status of 2009 Inspection Informal
Recommendations

Executive Secretariat

Because of the constant change in the structure of the executive secretariat, protocol assistants
and interpreters have different supervisors, although they often work on the same events and the
interpreters backstop the protocol assistants. The interpreters, in particular, are not adequately
mentored.

Informal Recommendation 1: Embassy Kabul should review the arrangements for the
supervision of the protocol assistants and interpreters to ensure that all receive the same level of
mentoring and supervision.

CFR Status: The protocol assistants and interpreters are now under the supervision of the
deputy executive secretary, which affords closer supervision, regular weekly staff meetings (for
better two-way communications), and more opportunities for mentoring and offering guidance.

Political Affairs

Temporary reinforcements enable the embassy to cover the national elections without
overwhelming its small political section.

Informal Recommendation 2: Embassy Kabul should make more use of temporary duty surge
capacity in the future to cover crucial national events.

CFR Status: A four-member temporary duty team helped cover election preparations. Many
“crucial national events” tend to be either of limited scope where it is unclear additional
temporary duty assistance would add value or to emerge too rapidly to permit sufficient planning
time.

A number of required reports, such as those on human rights, religious freedom, and trafficking
in persons, are due at the end of the summer, which coincides with the annual officer rotation. It
is unreasonable to assign the drafting of such complex and important assessments to officers who
have just arrived in country, but the embassy cannot change the deadlines for the reports.

Informal Recommendation 3: Embassy Kabul should make the first draft of annual reports the
last thing that reporting officers do before transferring out of Kabul rather than the first thing a
replacement officer does upon arrival in the fall.

CFR Status: The political section adopted this approach for the summer 2010 transfer season,
but the experience was not entirely positive. It was made more difficult when the initial drafter
left Kabul before the entire process of drafting and negotiation with the Department was
completed. Drafting the report gives action officers greater command over the subject matter,
                                          53
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

which is crucial to the subsequent revision process. The section is now working to ensure
complete and transparent documentation exists for information that is to be included in the
drafts.

IPA coordinates PRT reporting with minimal guidance from the political and economic sections.
Sometimes this results in PRT failure to put their reporting in a broader context and results in a
loss of synergy between the embassy reporting offices and the PRTs.

Informal Recommendation 4: Embassy Kabul should require the embassy reporting sections
to provide the provincial reconstruction teams with periodic guidance on which priority issues to
investigate and report.

CFR Status: Broad reporting guidance is shared via the weekly country team reporting
priorities list, which is circulated for comment in advance to each of the reporting sections.

Informal Recommendation 5: Embassy Kabul should develop and fund a travel plan for the
political and economic sections to bolster reporting from the field.

CFR Status: The embassy rightfully pointed out that funding is not a constraint to travel in
Afghanistan. Rather, it is the logistical complexity and burden placed upon small, isolated field
units to attend to visitors. As the embassy implements CFR Informal Recommendation 2 and
eliminates travel of staff assistants with the Ambassador, space will be opened up for members
of the political, economic, and political-military sections to gain important context to shape their
knowledge of Afghanistan and their clearance of cables drafted in the field.

One Foreign Service officer and one LE staff member spend hours watching plenary sessions of
the Afghan Parliament from the visitors’ gallery to gather information. This is not an efficient
use of time.

Informal Recommendation 6: Embassy Kabul should make use of a daily summary of
developments that the Parliament produces in Dari and English.

CFR Status: The political section’s parliamentary affairs unit makes extensive use of this
product in its reporting.

The political section is not currently using some management tools that could make its work
easier and address the lack of experience and continuity that results from the 1-year tours.

Informal Recommendation 7: Embassy Kabul should develop and use an electronic system to
help new political officers identify key sources, organizing it by issue rather than by individual
or portfolio, and including annotations to reflect reliability.

CFR Status: The political section has a shared Outlook contacts file in which all officers are
encouraged to add contact information. Handover notes from one political officer to his/her
successor and a mandatory overlap period help maintain continuity. More broadly, the embassy,
in collaboration with the Coordinator for Reconstruction and Stabilization, is field-testing an
                                          54
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

electronic knowledge management system designed to capture and preserve institutional
knowledge at the officer, section, and mission-wide level.

Informal Recommendation 8: Embassy Kabul should require political officers to leave a
handover memo for successors before departing the embassy.

CFR Status: Embassy Kabul has instituted this requirement.

Informal Recommendation 9: Embassy Kabul should invite all officers at provincial
reconstruction teams who have political reporting responsibilities to consult with the political
section on arrival and debrief it prior to departure.

CFR Status: The realities of in-country travel in Afghanistan virtually ensure consultations in
the embassy for field personnel en route to and from their field assignments. Orientation
briefings for personnel going to the field include representatives from many embassy sections.

Informal Recommendation 10: Embassy Kabul should develop a written orientation to the
political section’s work and use it to help new arrivals become familiar with their work more
quickly.

CFR Status: The political section has a document that describes standard operating procedures
for the section. The section’s office manager is responsible for updating this before the summer
turnover.

Political-Military Affairs

A new fusion cell has been created to work with U.S. military and coalition forces on efforts to
persuade enemy fighters to switch sides and join the coalition payroll. The embassy has not yet
sorted out exactly how to clear its reporting and coordinate its advocacy with the new cell, which
has been assigned the lead role in reintegration policy by NATO.

Informal Recommendation 11: Embassy Kabul should review its systems for communication
links, reporting responsibilities, and information sharing to ensure that the work of the fusion cell
is fully coordinated with U.S. policy and United Nations mandates for the disarmament and
reintegration of former Taliban members.

CFR Status: Two Foreign Service officers are embedded in the International Security
Assistance Force Reintegration Cell (referred to above as the fusion cell). A Senior Foreign
Service officer serves as the cell’s civilian deputy director; an FS-03 officer serves as an
embedded policy advisor. These two positions ensure full information flow from the cell to the
embassy; vet and clear embassy reporting on reintegration; and, coordinate with other embassy
sections to ensure U.S. policy equities are effectively represented at the International Security
Assistance Force/NATO.

The small strategic planning unit of the political-military section is partially staffed with
temporary duty personnel and much of its work is destined for Department offices. Most of the
                                          55
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

planning work does not depend on interaction with the Afghan Government and does not
necessarily need to be done in Kabul, where the costs and security risks of maintaining U.S.
employees are high.

Informal Recommendation 12: Embassy Kabul should review the strategic planning unit to
determine whether it would be more cost effective to do the strategic planning and metrics
monitoring in the Department or at another embassy in the region.

CFR Status: The embassy has reviewed the status of the political-military strategic planning
unit and found that the most appropriate physical location for this unit remains within the
mission. As the majority of this unit’s work is the synchronization of mission activities both
internally and with those of U.S. Forces-Afghanistan, International Security Assistance Force,
and the international community, effective planning could not be carried out without continuous
on-the-ground physical access to personnel in the embassy, International Security Assistance
Force and international organizations based in Kabul. The CFR team supports that conclusion.

Refugee Affairs

It is often difficult for the refugee coordinator or the Bureau of Population, Refugees, and
Migration nongovernmental implementing partners to visit projects because of the security
situation in the area. The refugee coordinator relies on secondhand reports on how the projects
are advancing. Synergies with other assistance programs may be the best way to maximize
bureau resources.

Informal Recommendation 13: Embassy Kabul should establish a mechanism to coordinate
Bureau of Population, Refugees, and Migration Affairs and U.S. Agency for International
Development projects in the same regions of Afghanistan to provide maximum synergy in those
communities.

CFR Status: The refugee coordinator has held weekly coordination meetings with USAID’s
Office of U.S. Foreign Disaster Assistance since arriving in Kabul in 2010. The coordinator also
holds irregular refugee coordination meetings with CDDEA, USAID, and POL. She attends the
border coordination, gender, and health and education working groups to improve coordination
with USAID and other sections. USAID’s Office of U.S. Foreign Disaster Assistance and the
refugee coordinator share information on ongoing projects, draft requests for proposals, and
conducted a variety of joint meetings on humanitarian and internally displaced person issues.

The refugee coordinator and her staff have difficulty monitoring projects in conflict areas. The
Ambassador can often travel to areas with his protective detail that the RSO would consider
unsuitable for travel by less well-protected refugee affairs staff.

Informal Recommendation 14: Embassy Kabul should include the refugee coordinator or the
senior locally employed assistant when the Ambassador travels to areas where there are Bureau
of Population, Refugees, and Migration Affairs-funded projects.


                                          56
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Status: Both the consular chief and LE assistant have been able to travel extensively
outside the framework of Ambassadorial travel. The refugee coordinator joined one
Ambassadorial trip to Gardez, and the LE staff is developing a remote monitoring strategy. See
also Informal Recommendation 5 and CFR Informal Recommendation 2.

Coordinating Director for Development and Economic Affairs

The CDDEA office has several management layers that review drafting from the officers in the
sections and agencies under the coordinator’s responsibility. Officers in many of those agencies
and sections are frustrated at having their work returned not only for substantive additions but for
grammatical and semantic changes as well. This multiple clearance and redrafting process can
delay products.

Informal Recommendation 15: Embassy Kabul should focus their drafting clearance efforts on
products for consumption outside of the embassy such as reporting cables and give internal
products a lighter scrub for policy consistency.

CFR Status: See the full discussion in the CDDEA section of this report. See also CFR
Informal Recommendation 7.

Development Assistance

The Ambassador reviews all USAID programs and projects, including new projects, additional
funding for ongoing projects, and project extensions to ensure that they support U.S. policy
priorities. The decision memorandum can be extremely detailed and cumbersome.

Informal Recommendation 16: Embassy Kabul should streamline the process for approving
U.S. Agency for International Development programs and projects so that only essential
information is included, and in the case of contract extensions, that contract performance is the
key issue addressed.

CFR Status: See the full discussion in the CDDEA section of this report.

Public Diplomacy

All or virtually all officers heading out to PRTs will eventually do some media or public
diplomacy work. Some will have PD as their primary focus.

Informal Recommendation 17: Embassy Kabul should continue public affairs briefings for
outgoing provincial reconstruction team officers and expand those briefings to staff who will be
focusing on public diplomacy.

CFR Status: Basic guidance on public affairs for all staff going out to field assignments is
being conducted by the PAS as part of the in-brief for all officers. This basic training is
supplemented by more extensive sessions for officers with PD responsibilities, but the greatest

                                          57
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

input comes from the establishment of a field program unit and the placement of officers with
PD experience in regional platforms.

PAS officers lack the time to do basic contact work and develop relationships with the key
Afghans in educational, cultural institutions, and media organizations.

Informal Recommendation 18: Embassy Kabul should take advantage of the arrival of
additional public diplomacy staff to set up a regular schedule of meetings with key contacts and
should use these meetings to develop contact information for the contact management database.

CFR Status: Meetings with key contacts remain at the mercy of the security situation, but the
arrival of more staff in the PAS has enabled most offers to meet with their Afghan counterparts.
The lack of a single, up-to-date contact management system, however, remains an obstacle to
collecting and using contact information. This lack was addressed in a formal recommendation in
the 2010 inspection report and has been reissued as CFR Recommendation 4.

The filing system in PAS is not well organized, and officers said they had difficulty finding
previous records. They also said they spent a lot of time doing essentially clerical tasks.

Informal Recommendation 19: Embassy Kabul should hire an American office management
specialist for the public affairs section to upgrade the filing system and establish better
administrative procedures.

CFR Status: The section hired an American office management specialist who works for the
coordinator for public affairs; however, the addition of a deputy public affairs officer for
operations has contributed to establishing better administrative procedures.

The FY 2009 supplemental spending plan for public diplomacy includes $1 million for 10 or
more cultural preservation projects. Since these projects would likely involve sensitive cultural,
historic, or religious sites, it is essential that they be done well.

Informal Recommendation 20: Embassy Kabul should get a cultural preservation specialist to
handle the work if the proposed multiple large-scale cultural preservation projects go forward. In
cooperation with the staff of the Ambassador’s Fund for Cultural Preservation, the embassy
should use these projects to build Afghan cultural preservation capacity.

CFR Status: The modest scope of the original expectation of $1 million was exceeded by a
factor of 10 as the embassy supplemented the Bureau of Educational and Cultural Affairs
contribution from the Ambassador’s Fund for cultural preservation with a supplemental
appropriation. The mission has hired an archeologist as a temporary, excepted Civil Service
employee to oversee a number of cultural preservation programs in Afghanistan.

PAS produces an attractive report on public diplomacy activities called the “PD Weekly” that is
distributed internally within the embassy and to offices in Washington. Although it is quite
popular and well received, the PD Weekly is very time consuming for the PAS staff, especially
for a document that is not distributed outside the U.S. Government.
                                          58
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 21: Embassy Kabul should investigate ways to reduce the amount
of time spent on the public diplomacy weekly report or get more benefit from it by using
portions of it in public fora, such as the embassy website.

CFR Status: The production of reporting has been completely revised since the 2009 inspection.
Program reporting in the PAS is extensively used and often repurposed.

The embassy Web site is not used routinely to highlight the benefits to the Afghan people of U.S.
involvement and assistance.

Informal Recommendation 22: Embassy Kabul should highlight more positive stories about
successful programs and the U.S. Agency for International Development on the embassy
website.

CFR Status: The addition of an assistant information officer position whose responsibility is
social media has meant that the section is able to highlight a range of programs in a wide variety
of outlets.

Consular Affairs

Consular officers have an emergency telephone that they pass among the three of them on a
consular duty officer rotation. No other embassy personnel handle the consular duty. When new
consular officers arrive they have no resources for the consular duty.

Informal Recommendation 23: Embassy Kabul should develop a consular duty manual that
can be used by consular officers but also by nonconsular duty officers in the future.

CFR Status: A consular duty manual has been prepared. Only consular officers perform
consular duty officer actions.

The American citizens services LE assistant doubles as the part-time fraud investigator. Most of
his work involves responding to requests for investigation from other embassies that are
processing Afghan nonimmigrant visa or immigrant visa cases. He has no systematic way of
tracking and recording his antifraud work.

Informal Recommendation 24: Embassy Kabul should develop a system for tracking its fraud
prevention and detection work in preparation for the arrival of an assistant regional security
officer for investigations and the onset of immigrant visa processing.

CFR Status: With the arrival of an assistant regional security officer for investigations, a system
for tracking its fraud preventions and detection work is now in place.




                                          59
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Consolidation

IPA has its own management section to handle in-processing of new employees, logistics, and
support operations for over 180 (soon to be 380) U.S. civilians at the PRTs.

Informal Recommendation 25: Embassy Kabul should examine the possible efficiencies that
could be gained by consolidating Office of Interagency Provincial Affairs management support
into the management section.

CFR Status: The IPA management support has been integrated into the embassy’s management
office as the field support unit. The embassy’s arrivals and departures unit processes all
incoming and outgoing personnel, whether based in Kabul or in the field. Both the management
section and IPA told inspectors they are pleased with the outcome.

Motor Vehicles

Embassy Kabul allows some employees who are not embassy chauffeurs to operate armored
vehicles, but it does not have a current policy statement informing employees of their personal
liability and the extent of embassy liability insurance coverage.

Informal Recommendation 26: Embassy Kabul should revise its motor vehicle self-drive
policy following guidance in the Department of State Motor Vehicle Safety Program for
Overseas Posts (issued by OBO/OPS/SHEM, dated November 2009) to establish the
applicability of the policy to all agencies under chief of mission authority and provide for an
active Certified Safe Driver Instructor Program for all employees operating motor pool vehicles.

CFR Status: All nonchauffeur staff who are allowed to drive embassy vehicles have taken the
Department’s Foreign Affairs Counter Threat course, which includes defensive and safe driving
components. Per embassy policy, vehicles can only be used for official purposes, and all
embassy personnel have blanket travel orders. Therefore, personal liability coverage is unneeded.

Procurement

Embassy Kabul provides bottled water to embassy personnel even though the water in the
embassy compound is potable. There is no justification in the files for purchasing and
distributing bottled waters to embassy personnel.

Informal Recommendation 27: Embassy Kabul should include in the procurement files,
justification for providing bottled water to embassy personnel.

CFR Status: Embassy Kabul has included the justification in the procurement file.




                                         60
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Financial Management

There is no travel authorization or blanket travel authorization for some in-country travel since
there is no travel cost. While cost may not be an issue, there could be liability issues if travelers
performing official travel are not covered by a travel authorization.

Informal Recommendation 28: Embassy Kabul should prepare either travel authorizations or
blanket travel authorizations for in-country travel in advance of travel for all travelers.

CFR Status: The Department’s Orientation and In-Processing office in Washington provides
blanket travel authorizations for in-country travel for all permanent employees. The financial
management office processes blanket travel authorizations for in-country travel for local
employees, as needed.

Human Resources

Embassy Kabul’s vacancy announcements are only advertised on one Internet Web site.

Informal Recommendation 29: Embassy Kabul should advertise on more than one Internet
website and establish practices that foster diversity in local recruitment.

CFR Status: The embassy currently posts its position openings on two Web sites and is
expanding to a third. The human resources SharePoint site includes a section on Equal
Employment Opportunity and a policy on diversity.

The FSN Handbook was last updated in 2008. New compensation information has not been
included in the handbook.

Informal Recommendation 30: Embassy Kabul should revise the local employee handbook
and distribute it to the local staff.

CFR Status: Embassy Kabul published its updated local employee handbook during the course
of this CFR.

The human resources section does not use its SharePoint site to advertise internal vacancy
announcements.

Informal Recommendation 31: Embassy Kabul should advertise internal vacancy
announcements on its SharePoint site.

CFR Status: Internal vacancy announcements are advertised on its SharePoint site.

Embassy Kabul does not have a regular orientation program for their newly hired local staff
employees.


                                           61
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 32: Embassy Kabul should establish and implement a mission-
wide orientation program for all their newly hired locally employed staff.

CFR Status: Embassy Kabul holds weekly orientation programs for all newly hired LE staff.

American supervisors do not take advantage of other types of recognition, such as local staff
employee of the quarter awards, certificates of appreciation, and nonmonetary awards of minimal
value.

Informal Recommendation 33: Embassy Kabul should establish other types of recognition for
local staff employees.

CFR Status: Embassy Kabul uses certificates of appreciation and extra mile awards to recognize
work by local employees, outside of the more formal mission awards program.

Embassy Kabul does not have a human resources checklist with time lines to guide the hiring
process for EFMs.

Informal Recommendation 34: Embassy Kabul should prepare a checklist with timelines to
guide the hiring process for eligible family members.

CFR Status: This has been reissued as CFR Recommendation 11.

An explanation from the post employment committee on the selection of an eligible family
member is not always included in the files.

Informal Recommendation 35: Embassy Kabul should request from the post employment
committee and keep in the files an explanation of the selection of an eligible family member.

CFR Status: Personnel folders for eligible family members working at Embassy Kabul include
information regarding the post employment committee decision.

Information Management

The OIG team noted that since Kabul is pilot testing numerous projects, it would also be
valuable to test the “local connection” option suggested in a USAID Mission Director memo to
the Chief of Mission. The “local connection” is in use in 38 locations and supports the sharing of
the State WebPASS application, SharePoint, and other applications. There may be cost savings
for all agencies.

Informal Recommendation 36: Embassy Kabul should test the U.S. Agency for International
Development’s “local connection” option to determine if it is a viable alternative to the
information technology consolidation pilot project underway.

CFR Status: Cable 11 State 014838 regarding the consolidated State/USAID information
technology platform has negated this recommendation.
                                         62
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

There is no established procedure to decide what information technology hardware should
remain in place and be reused for the next high-level visit.

Informal Recommendation 37: Embassy Kabul should identify temporary office space for
high-level visitors and maintain core information technology equipment in that space for future
visitors.

CFR Status: Embassy Kabul has insufficient office space for a dedicated, high-level visitor
office. The embassy believes it will have adequate space when the new temporary office space
becomes available in late summer/early autumn 2011.

Telephone, radio, and computer inventories are not up-to-date.

Informal Recommendation 38: Embassy Kabul should update its telephone, radio and
computer inventory systems.

CFR Status: Embassy Kabul has entered the entire information technology inventory into the
Department’s Integrated Logistics Management System inventory database

The information management officer was responsible for monitoring contracts in excess of
$14,000,000 and had not received the Government Technical Monitor training.

Informal Recommendation 39: Embassy Kabul should require that the information
management officer completes Government Technical Monitor training.

CFR Status: The information management officer has completed the Government Technical
Monitor training.

The information management staff did not have updated individual development and security
awareness training.

Informal Recommendation 40: Embassy Kabul should require that the information
management staff have updated individual development plans and complete security awareness
training.

CFR Status: All systems users are required to complete security awareness training. If the
training is not completed on time, users are automatically locked out of the system until the
training is completed.

Health Unit

Although medications are correctly stored and controlled, the inventory records are not well
organized.

Informal Recommendation 41: Embassy Kabul should prepare and maintain inventory records
of medications.
                                          63
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CFR Status: The health unit has updated and reorganized its inventory records of medications.

The first aid kits in some embassy official cars are missing, and there is no assurance that all the
first aid kits have been checked by health unit staff.

Informal Recommendation 42: Embassy Kabul should maintain first aid kits in all embassy
official vehicles and have health unit personnel check the kits regularly.

CFR Status: This has been reissued as CFR Recommendation 12.

Community Liaison Office

The community liaison office SharePoint site is not updated frequently.

Informal Recommendation 43: Embassy Kabul should update the community liaison office
SharePoint site regularly.

CFR Status: The community liaison office SharePoint site is frequently updated.

The second community liaison office bulletin board does not have current information.

Informal Recommendation 44: Embassy Kabul should update its second community liaison
office bulletin board regularly.

CFR Status: All community liaison office bulletin boards are updated regularly.

Embassy Kabul does not have a social sponsor program.

Informal Recommendation 45: Embassy Kabul should establish a social sponsor program for
new arrivals.

CFR Status: The arrivals and departures unit works with the new arrivals’ work sponsors to
provide this information.

The community liaison officer coordinators do not have a systematic way of gathering
information from embassy personnel about activities of interest.

Informal Recommendation 46: Embassy Kabul should prepare a survey to elicit information
from embassy personnel on activities that they would like to have sponsored by the community
liaison office.

CFR Status: The community liaison office and the Kabul Embassy Employee Association
conducted a joint survey in 2010. Another survey is planned for autumn 2011.




                                          64
                              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
